Division of Enforcement’s
Disgorgement Waivers




                            February 3, 2009
                             Report No. 452
                                     UNITED STATES
                        SECURITIES AND EXCHANGE COMMISSION
                                 WASHINGTON, D.C. 20549
    OFFICE OF
INSPECTOR GENERAL



                               MEMORANDUM
                                      February 3, 2009

     To:            Linda Thomsen, Director, Division of Enforcement

     From           H. David Kotz, Inspector General

     Subject:       Audit of Disgorgement Waivers, Report No. 452

     This memorandum transmits the Securities and Exchange Commission, Office of
     Inspector General’s (OIG) final report detailing the results of our contractor’s
     audit on Enforcement’s Disgorgement Waiver process.

     The final report consists of 8 recommendations that are addressed to the Division
     of Enforcement. In response to the draft report, responsible management
     officials concurred with all 8 recommendations.

     Your written responses to the draft report, dated February 3, 2009, are included
     in their entirety in Appendix IV. In addition, OIG’s response to management’s
     comments are included in Appendix V.

     Should you have any questions regarding this report, please do not hesitate to
     contact me. During this audit we appreciate the courtesy and cooperation that
     you and your staff extended to our contractors.

     Attachment

     cc:    Peter Uhlmann, Chief of Staff, Chairman’s Office
            Diego Ruiz, Executive Director, Office of the Executive Director
            George Curtis, Deputy Director, Division of Enforcement
            Scott Friestad, Deputy Director, Division of Enforcement
            Joan McKown, Chief Counsel, Division of Enforcement
            Dick D’Anna, Director, Office of Collections and Distributions, Division of
                   Enforcement
            Jim Clarkson, Director of Regional Office Operations, Division of
                   Enforcement
            Michelle Barrans, Senior Attorney, Division of Enforcement
            Darlene L. Pryor, Management Analyst, Office of the Executive Director

            Rick Hillman, Managing Director of Financial Markets and Community
                  Investment, GAO
                                EXECUTIVE SUMMARY


Regis & Associates, PC, under contract with the U.S. Securities and Exchange
Commission’s (the Commission) 1 Office of Inspector General, reviewed the
Commission’s Division of Enforcement’s (Enforcement) Disgorgement Waivers,
granted in fiscal years 2006 through 2008. The Office of Inspector General (OIG)
was established in March 1989, as required by the Inspector General Act of
1978, as amended. The mission of the OIG is to promote, the integrity, efficiency
and effectiveness of the critical programs and operations of the Commission.
The OIG independently decides which matters it will audit and investigate.

The OIG conducted an audit of Enforcement’s disgorgement waivers from
November 1999 through June 2000 (Disgorgements, Audit 311). The OIG’s
audit found that improvements were needed in the waiver process in order to
ensure that the recommended waivers were justified. The OIG’s report
recommended that Enforcement establish an effective organizational structure
for reviewing disgorgement waiver requests, hire a contractor to review waiver
requests, and evaluate the findings and recommendations provided by the
contractor.

The OIG conducted a follow-up audit of Enforcement’s disgorgement waivers
from June 2004 to December 2004 (Disgorgements, Audit 384) to evaluate the
adequacy of Enforcement’s written procedures for the waiver process, and to
determine the extent of compliance with those procedures. The follow-up audit
(Audit 384) found that further improvements were still needed in the internal
controls and guidance for reviewing disgorgement waivers. Specifically, the
follow-up audit noted instances where Enforcement’s staff did not obtain the
required information to corroborate a defendant/respondent’s financial
statement assertions (e.g., credit reports, income tax returns, Lexis/Nexis or
other Internet searches). Additionally, the OIG follow-up audit found that
Enforcement’s guidance did not clearly state whether certain steps were
required or optional, and did not provide guidance on the handling of cases
where defendants/respondents did not provide the requested documentation. The
OIG follow-up audit report contained several recommendations, including that:
Enforcement should implement adequate internal controls to ensure that all
required documentation such as tax returns, database searches, and credit
reports be obtained and reviewed by a Supervisor; Enforcement should consider
making the Checklist a mandatory item to be completed and placed in the
waiver file; and Enforcement should implement adequate internal control
policies and procedures to ensure that that the staff attorneys are trained in the
disgorgement waiver process.

1
    See Acronyms used in Appendix I.

Audit of Enforcement’s Disgorgement Waivers                      February 3, 2009
Report No. 452
                                              i
OIG’s current audit found that while progress has been made in Enforcement’s
disgorgement waiver process, some concerns (including some deficiencies that
the OIG previously identified), remain. Our review consisted of 63 investigations
where 72 defendants/respondents received disgorgement waivers totaling
$123,070,681.52 that originated between October 1, 2005 and May 31, 2008
based on their inability to pay.

The results of our audit are as follows. Our review has identified three cases in
which full waivers were granted, totaling $841,580, even though the
defendants/respondents appeared to have the ability to pay at least some portion
of the disgorgement amounts and thus, either partial payment and/or a payment
plan should have been considered. Specifically, we determined that these
defendants/respondents had substantial assets, good credit scores, positive net
worth, and/or positive monthly net income.

The audit also revealed two instances where the assets were not accurately
reported on the sworn financial statements (SFS). The SFS, submitted by
defendants/respondents, are the foundational documents in the disgorgement
waiver review process.     These documents state the assertions of the
defendants/respondents regarding their assets, income, liabilities, and expenses.

Specifically, we identified two defendants/respondents who underreported assets
totaling at least $386,237.78. Our analysis is based on the inability to reconcile
the amounts reported on the SFS to the corresponding supporting
documentation and information obtained through public database searches.

In addition, our review found that in 56 instances, Enforcement did not follow its
procedures requiring its staff to obtain adequate supporting documentation for
the dollar amounts on the defendants/respondents’ SFS. 2 In addition, the staff
did not document why certain procedures were not followed (e.g., why certain
documentation was not obtained). Following these procedures is important
because it helps ensure that waiver requests are only granted to persons with a
proven inability to pay.

Assets such as cash, securities, real estate, automobiles, and notes receivable,
reported on the SFS for seven defendants/respondents, were not supported by
documentation, such as bank statements and asset titles. The liabilities
reported on the SFS for 21 defendants/respondents were not supported by
documentation, such as mortgage statements and credit card statements.
Furthermore, income and expense information reported on the SFS were not
always supported by the needed documentation.

2
  Some individuals may be listed more than once because we found missing documentation with respect to their
income and expenses, for instance.
Audit of Enforcement’s Disgorgement Waivers                                         February 3, 2009
Report No. 452
                                                   ii
The review found one instance where the SFS was apparently not prepared or
provided to us. Also, the SFS for one defendant/respondent was not signed and
notarized.

The audit further found 24 instances where the checklists that are required for
maintaining, reviewing and confirming the SFS were either not provided in the
file, or not signed as required. We also found 34 instances where credit reports,
bank statements and income tax returns were not provided or obtained, or
signed as required.

The review further found that Enforcement had no formal or comprehensive
training programs for the staff who are responsible for reviewing the
disgorgement waiver requests. The provision of formal training for those staff
would provide them with a comprehensive understanding regarding the
disgorgement waiver review process. Given the complexity and the level of
sensitivity, it is critical that the staff who review waiver requests are provided
with the requisite resources, including adequate training in new technology,
skills, and applicable regulatory standards.

The audit report contains eight recommendations, 3 including that: Enforcement
ensure that staff comply with its procedures and consider partial payments
plans and partial waivers where defendants/respondents have the ability to pay
some     portion    of   the    disgorgement    amount;    ensure    review   of
defendants/respondents’ financial information for accuracy prior to
recommending a disgorgement waiver; clarify its policies regarding when
supporting documentation should be obtained; implement adequate internal
controls to ensure that all required documentation such as tax returns, database
searches, and credit reports be obtained and reviewed by a supervisor; and
implement adequate internal control policies and procedures to ensure that the
staff attorneys are trained in the disgorgement waiver process.

Based on our review, we noted total cost savings amounting to $386,237.78
represented underreported assets. These figures are detailed and reported in
Appendix II of this report.

The findings and issues noted above are discussed in detail in this report. The
report provides eight recommendations, which if implemented, would help
improve controls over the granting of disgorgement waivers. 4



3
 See Appendix III for a list of the recommendations.
4
 Management’s comments are attached in Appendix IV and our response is in Appendix V.
Audit of Enforcement’s Disgorgement Waivers                                       February 3, 2009
Report No. 452
                                                iii
                                      TABLE OF CONTENTS


EXECUTIVE SUMMARY ............................................................................................i

INTRODUCTION ....................................................................................................... 1

         Background....................................................................................................... 1

         Objectives, Scope, and Methodology ................................................................ 4

FINDINGS AND RECOMMENDATIONS................................................................. 9

APPENDIX
Appendix I – Acronyms Used.................................................................................... 38
Appendix II – Schedule of Cost Savings................................................................... 39
Appendix III – List of Recommendations ................................................................. 40
Appendix IV – Management Comments .................................................................. 42
Appendix V – OIG Response to Management Comments ....................................... 61
Appendix VI – Criteria.............................................................................................. 63




Audit of Enforcement’s Disgorgement Waivers                                                    February 3, 2009
Report No. 452
                                   INTRODUCTION

Background
The Securities and Exchange Commission (the Commission) is a United
States government agency, created by Congress to enforce the federal
securities laws and regulate the securities market. The Commission was
created by Section 4 of the Securities Exchange Act of 1934 (1934 Act). In
addition to the 1934 Act that created it, the Commission enforces the
Securities Act of 1933, the Trust Indenture Act of 1939, the Investment
Advisors Act of 1940, the Investment Company Act of 1940, and the
Sarbanes-Oxley Act of 2002. The Commission is comprised of five
Commissioners, one of which includes the Chairman, who are appointed by
the U.S. President, and approved by the Senate. The statutes administered
by the Commission are designed to promote full public disclosure, and to
protect the investing public against fraudulent and manipulative practices in
the securities market.

The Division of Enforcement (Enforcement) was created in August 1972, to
consolidate enforcement activities that previously had been handled by the
various operating divisions at the Commission's headquarters in Washington,
D.C. The Commission's enforcement staff 5 conducts investigations into
possible violations of the federal securities laws, and prosecutes the
Commission's civil suits in the federal courts, as well as its administrative
proceedings.

In civil suits, the Commission seeks injunctions, which are orders that
prohibit future violations. A person who violates an injunction is subject to
fines or imprisonment for contempt. In addition, the Commission often seeks
civil monetary penalties and the disgorgement of illegal profits, or losses
avoided. The courts may also bar or suspend defendants from acting as
corporate officers or directors.

The Commission can bring a variety of administrative proceedings, which are
heard by administrative law judges and the Commission itself, if appealed.
Proceedings for a cease and desist order may be instituted against any person
who violates the federal securities laws. The Commission may order the
respondent to disgorge ill-gotten funds in these proceedings. With respect to
regulated entities (e.g., brokers, dealers and investment advisers) and their
employees, the Commission may institute administrative proceedings to

5
    For purpose of this report, “Enforcement staff” includes those staff in the Commission’s Regional Offices.

Audit of Enforcement’s Disgorgement Waivers                                               February 3, 2009
Report No. 452
revoke or suspend registration, or to impose bars or suspensions from
employment. In proceedings against regulated persons, the Commission is
authorized to order the payment of civil penalties, as well as disgorgement.

The Commission’s Division of Enforcement is responsible for reviewing
disgorgement waiver requests. Disgorgements represent ill-gotten gains, or
losses avoided, resulting from individuals or entities violating the federal
securities laws. The Commission seeks disgorgements in order to ensure that
securities law violators do not profit from their illegal activities. When
appropriate, the disgorged funds are returned to injured investors. Penalties
are also levied on violators of federal securities laws as appropriate.
Disgorgements and penalties may be ordered in either administrative
proceedings or civil actions, and the cases may be settled or litigated.

Enforcement can recommend to the Commission that disgorgements be
completely or partially waived, based on the defendant/respondent’s
demonstrated inability to pay, among other policy reasons. In reviewing a
waiver request, the enforcement procedures require the staff to request
sworn financial statements. See Recommending Financial Waivers and
Payment Plans to the Commission revised as of January 14, 2005
(hereinafter, referred to as “Enforcement’s policies and procedures governing
the disgorgement waiver process.”) The defendants/respondents are required
to attach copies of the following documents to the sworn financial statements
submitted:

       •   Federal income and gift tax returns, including schedules and
           attachments associated with them;
       •   Bank account statements;
       •   Credit card and brokerage account statements, insurance policies,
           mortgage documentation;
       •   Any financial statement prepared by the defendant/respondent,
           including bankruptcy schedules; and
       •   Documents evidencing current loans.

Additionally, Enforcement’s staff are required to conduct a credit check on
the defendants/respondents, and perform Internet or Lexis/Nexis searches on
the defendants/respondents, as well as their relatives and friends in certain
instances. These searches are to corroborate the defendants/respondents’
stated financial condition and to identify hidden assets, overstated liabilities,
unreported income, and overstated expenses. The financial statements
provided by the defendants/respondents show their assets, liabilities, income
Audit of Enforcement’s Disgorgement Waivers                       February 3, 2009
Report No. 452
                                              2
and expenses. In cases where the Commission waives the disgorgements,
penalties are not assessed against the defendants/respondents.

In Fiscal Year (FY) 2006, the Commission initiated 914 investigations, 218
civil proceedings, and 356 administrative proceedings. 6 These proceedings
covered a wide range of issues. Major areas of enforcement activity were:
corporate financial fraud, including abusive backdating of stock options;
compliance failures at self-regulated organizations and broker-dealers; and
fraud related to mutual funds. The Commission’s enforcement cases resulted
in a total of more than $3.3 billion in disgorgements and penalties ordered
against securities law violators during FY 2006. Whenever practical, the
Commission sought to return funds to harmed investors, through the use of
the “fair fund“ provision of the Sarbanes-Oxley Act. 7

For FY 2006, FY 2007, and the time period from October 1, 2007 through
May 31, 2008, the Commission granted waivers in the amounts of $73.5
million, $67.8 million, and $37.1 million, respectively. 8

Based on the OIG’s prior findings involving the disgorgement waiver process
mentioned above, the OIG contracted Regis & Associates, PC to conduct a
review of Enforcement’s disgorgement waiver process.




6
  GAO-07-134 Financial Audit, Securities and Exchange Commission’s Financial Statements for Fiscal
Years 2006 and 2005.
7
  Section 308 of the Sarbanes Oxley Act of 2002, 15 U.S.C. § 7246.
8
  Source: The Phoenix computer system which is maintained by the Division of Enforcement.
Audit of Enforcement’s Disgorgement Waivers                                         February 3, 2009
Report No. 452
                                                 3
Objectives, Scope and Methodology
Objectives
Our review objectives were to: (a) evaluate Enforcement’s disgorgement
waiver process’ compliance with governing policies and procedures and
identify       possible    improvements,      (b)    determine      whether
defendants/respondents misrepresented their financial position to
Enforcement in seeking disgorgement waivers, (c) quantify the
defendants/respondents’ actual amount of undisclosed assets, overstated
liabilities, underreported income and overstated expenses, versus the stated
amounts, and (d) follow up on prior OIG recommendations.

Scope and Methodology
Regis & Associates, PC, was requested by the Securities and Exchange
Commission – Office of Inspector General (OIG) to provide professional
services in conducting a review of the Division of Enforcement’s disgorgement
waivers. The scope of the professional services was limited to a review of the
investigative case files for each defendant/respondent included in a sample
that was judgmentally selected by Regis & Associates, PC in consultation
with the OIG. Regis & Associates, PC reviewed 63 investigations, which
represented 72 individual defendants/respondents and entities who received
either a full or partial disgorgement waiver. Our audit fieldwork was
performed from July 7 through August 29, 2008, using procedures approved
by the OIG. The review methodology is detailed below.

Our methodology was designed by utilizing a risk-based approach. The
review consisted of several processes including: reviewing policies and
procedures governing the disgorgement waiver process; conducting
interviews and walk-through procedures with appropriate Enforcement
personnel to document our understanding and observe the actual processes
in-place; identifying high risk areas; and, detailed testing of selected
disgorgement waiver case files. We performed research and also consulted
with the staff at the Commodities and Futures Trading Commission to
identify possible best practices in the disgorgement waiver process.

We held a planning meeting and conducted an entrance conference with
officials from the OIG and Enforcement. We also obtained and reviewed
Enforcement’s policies and procedures governing the disgorgement waiver
process. Based on our preliminary discussions with officials of the
Commission, we identified potential risk areas regarding the disgorgement
waiver process. These included:


Audit of Enforcement’s Disgorgement Waivers                    February 3, 2009
Report No. 452
                                              4
       •   Inadequate policies or processes for reviewing sworn financial
           statements and other documentation submitted by the
           defendants/respondents during the waiver process (e.g.,
           Enforcement had not adopted a comprehensive procedure for
           finding hidden assets, revenues, etc.);
       •   Inadequate guidance for the review of disgorgement waiver case
           files;
       •   Lack of comprehensive training         for   staff   involved   in   the
           disgorgement waiver process;
       •   The possibility that Enforcement staff could have conducted
           substandard work when reviewing a waiver, in light of incentives to
           close out investigations in a swift and timely fashion;
       •   Insufficient documentation supporting disgorgement              waiver
           recommendations granted to defendants/respondents; and
       •   The inability of Enforcement staff to identify or find hidden
           assets/revenues,   and   overstated    liabilities/expenses of
           defendants/respondents.

Sample Size Selection
Enforcement provided the OIG with a list (from Enforcement’s Phoenix
system) of approved disgorgement waivers that were granted during fiscal
years (FY) 2006, 2007, and the time period between October 2007 and May
2008, based on the defendants/respondents’ inability to pay, among other
policy reasons. The OIG requested that we review approximately 30 percent
of the waiver cases in both FY 2006 and 2007, and 100 percent of the waiver
cases in FY 2008 (as of May 31, 2008). This resulted in a total of 63
investigations, which involved 72 defendants/respondents. The table below
shows the number and amount of disgorgement waivers granted by
Enforcement during FY 2006; 2007; and October 1, 2007 to May 2008, based
on the defendants/respondents’ inability to pay, among other policy reasons,
and the resulting sample size for each of the three years under review.




Audit of Enforcement’s Disgorgement Waivers                        February 3, 2009
Report No. 452
                                              5
                          Table 1. Sample Size for FYs 2006 – 2008



                               Approved                                                       Sample
    Fiscal    Total Amount      Waiver   Sample    Sample Size                 Sample Size      Size
    Year         Waived         Cases   Percentage Reviewed                      Amount      Percentage
    2006       $ 72,647,699.20    62       30%        18                     $ 58,132,302.70    80%
    2007       $ 67,814,563.84    61       30%        18                     $ 27,795,120.83    41%
    2008
         9
               $ 37,143,257.99    27      100%        27                     $ 37,143,257.99   100%
    Total     $ 177,605,521.03   150                  63                    $ 123,070,681.52
     Source: Generated by Regis & Associates, PC, based on information provided by Enforcement.


The 63 selected files represented disgorgement waivers, totaling
$123,070,681.52, which is approximately 70% of the $177,605,521.03 in total
waivers granted, based on inability to pay, among other policy reasons, for
the period of FY 2006 through May 31, 2008. The case selection for FYs 2006
and 2007 was based on a combination of high-dollar value disgorgement
waiver cases and judgmental samples. The case selection also took into
account the type of case (e.g., insider trading, market manipulation, etc.).

Enforcement provided us with a population of 153 cases of disgorgement
waivers, totaling $178,614,289. Based on our review of the applicable Action
Memoranda detailing Enforcement’s recommendation to the Commission, we
determined that waivers had actually not been granted for three of those
cases. We, accordingly, eliminated those three cases from the population.
This resulted in a new population of 150 cases, totaling $177,605,521.03 in
actual waivers, granted for the period under review.          Based on our
discussions with the OIG, we further eliminated 14 investigations from the
population because the investigations in question were particularly
sensitive. 10  This resulted in a new waiver case population of 136, totaling
$176,406,074.49. The final population for the sample is shown below in Table
2.




9
  For the period October 1, 2007 to May 31, 2008.
10
   These 14 investigations were described as involving very unique circumstances, e.g., confidential
informants, that were unrelated to the waivers, and that did not lend itself to this type of expedited review.
Audit of Enforcement’s Disgorgement Waivers                                                  February 3, 2009
Report No. 452
                                                      6
                               Table 2 Final Population

                                        Number of
                                        Accounts           Amount Waived
                     FY 2006                49             $ 71,771,321.69
                     FY 2007                60             $ 67,491,494.81
                     FY 2008                27             $ 37,143,257.99
                       Total               136            $ 176,406,074.49
                   Source: Generated by Regis & Associates, PC, based on
                  information provided by Enforcement.

For the 63 case files identified in Table 1, we reviewed the related
documentation to determine whether the recommendations for the waivers
were based on well-informed decisions. We also reviewed the case files to
determine whether the required documentation such as the SFS, the
Checklists for Reviewing Sworn Financial Statements (the Checklists), and
the defendants/respondents’ income tax returns, credit reports, bank and
brokerage statements and bankruptcy schedules (where appropriate) were
obtained and reviewed by Enforcement staff. We reviewed the SFS to ensure
that they were signed by the defendants/respondents and notarized. We
reviewed the checklists for completeness and for evidence of supervisory
review. We compared the amounts reported on the defendants/respondents’
SFS to the related supporting documentation, such as bank and brokerage
statements, bills, settlement sheets for real estate transfers, tax returns, and
loan documents. We reviewed the defendants/respondents’ tax returns to
ascertain any income or indications of assets reported to the IRS, which may
not have been reported on the SFS. We reviewed bank and credit card
statements for large transfers from the defendants/respondents’ accounts,
which may indicate income, purchases, or dispositions of assets, which may
not have been reported on the SFS.                        We reviewed the
defendants/respondents’ credit reports for indications that the
defendants/respondents may have overstated their liabilities and expenses,
and to determine their credit standing.

Use of Computer Processed Data
We used computer-processed disgorgement waiver data maintained in
Enforcement’s Phoenix System, which was provided to the OIG. We verified
the arithmetical accuracy of the computations. We did not test the internal
controls over the Phoenix System to determine data integrity and reliability.
We also used the following public databases to search for, to the extent
possible,    financial    information    relating    to     the     selected
Audit of Enforcement’s Disgorgement Waivers                                  February 3, 2009
Report No. 452
                                                 7
defendants/respondents: Choicepoint/Autotrack, Lexis/Nexis, and Westlaw.
The constraints involved in utilizing the various public databases included
restrictions imposed by State laws and regulatory institutions on the nature
and type of financial information about individuals that was allowed on
public search databases.

Prior Audit Coverage
We followed up on recommendations noted in the OIG Audit Reports 311 11
and 384 12 to determine the corrective measures implemented by Enforcement
in the disgorgement waiver review process.

We conducted this review in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the
review to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our review objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our review objectives.




11
 Audit Report 311 (Title: Disgorgements) dated January 11, 2001.
12
 Audit Report 384 (Title: Enforcement Disgorgement Waivers) dated January 18, 2005.
Audit of Enforcement’s Disgorgement Waivers                                       February 3, 2009
Report No. 452
                                                8
         FINDINGS AND RECOMMENDATIONS

Finding 1:               Defendants/Respondents Appear to Have
                         the    Ability to Pay at Least Some Portion
                         of the Disgorgements Waived
Individuals or entities that violate federal securities laws may be required to
pay disgorgements and/or penalties. If the individuals or entities assert they
do not have the ability to pay, they may request a waiver of the amount owed.
These individuals or entities are required to submit SFS detailing their
financial condition. Upon receipt, Enforcement staff attorneys review the
SFS to determine whether they are indeed unable to pay the stated
disgorgement amount and/or penalties (as appropriate). Our review of 72
disgorgement       waivers    identified    three     instances   where    the
defendants/respondents appeared to have some ability to pay at least some
portion of the disgorgement amounts waived. Specifically, we determined
that these defendants/respondents had substantial assets, good credit scores,
positive net worth, and positive monthly net income, yet requested and
obtained full disgorgement waivers. Table 3 identifies the three cases in
which the defendants/respondents appeared to have some ability to pay at
least a portion of the disgorgement.

               Table 3. Defendants/Respondents with Ability to Pay.
                                 Reference            Total Amount
                                  Number                 Waived
                                DFD-3(a)                    320,000.00
                                DFD-3(b)                    320,000.00
                                DFD-40                      521,580.00
                                                                     13
                                   Total                $841,580.00

                                Source: Generated by Regis & Associates, PC,
                                based on information provided by Enforcement.




13
  Reference number DFD-3 involves two defendants/respondents who were jointly and severally liable for
the disgorgement amount of $320,000, which was waived, and therefore, this amount was counted once in
the computation of the total amount waived.
Audit of Enforcement’s Disgorgement Waivers                                         February 3, 2009
Report No. 452
                                                  9
The specific factors involved in each case are described below:

For reference number DFD-3(a), we noted that the individual had a positive
monthly net income of $4,717.54 and a positive net worth of $12,410.
During our review of the action memorandum, Enforcement’s staff attorneys
stated, “It is noteworthy that the individual has no prior disciplinary or
criminal history, and that he was cooperative throughout the litigation and
expressed remorse to the staff for his wrongdoing.” While we acknowledge
that Enforcement is entitled to use subjective considerations such as criminal
history and the level of cooperation of the individual in the recommendation
for the waiver, based on the individual’s net income and net worth, we
determined that Enforcement should have considered the possibility of
arranging a payment plan for the individual to pay at least some portion of
the disgorgement amount waived.

For reference number DFD-3(b), we noted that the individual had a positive
net worth of $481,139.97 and good credit scores of 776, 781, and 797. 14 The
individual’s net worth included notes receivable totaling $373,704. However,
in the analysis of the individual’s financial condition with regard to his
ability to pay the disgorgement, Enforcement excluded the notes receivable of
$373,704 on the basis that these notes were uncollectible in the near future.
We were unable to obtain adequate supporting documentation such as the
audited financial statements of the debtor entities in question to support the
assertion that they were insolvent, thus, rendering the notes receivable
uncollectible.

In recommending the waiver, Enforcement’s action memorandum stated that
the individual had no prior disciplinary or criminal history, was cooperative
throughout the litigation, and expressed remorse for his wrongdoing. While
we note that Enforcement is entitled to use subjective considerations such as
criminal history and the level of cooperation of the individual, in the
recommendation for the waiver, based on the individual’s positive net worth
and good credit scores, we determined that Enforcement should have
considered the possibility of arranging a payment plan for the individual to
pay at least some portion of the disgorgement amount waived.

For reference number DFD-40, we noted that the individual had a positive
net worth of $18,115 and good credit scores of 697, 709, and 715. In
recommending the waiver, the Enforcement stated in the action

14
   A good credit score generally indicates that the defendant/respondent is meeting his or her current
financial obligations in a timely manner. Enforcement stated that they never directed the staff to base their
waiver recommendation on credit scores. However, we believe that a good credit score is one of the factors
that indicate that the defendant/respondent may be in a position to pay at least some of the disgorgement.
Audit of Enforcement’s Disgorgement Waivers                                                February 3, 2009
Report No. 452
                                                     10
memorandum that the individual had no resources to pay the disgorgement
amount, and that he had agreed to act as a witness against other individuals
in another litigation. However, Enforcement’s procedures do not specifically
allow waivers to be based upon a consideration that the
defendant/respondent agreed to act as a witness in litigation. Moreover,
based on the positive net worth and good credit scores identified above, we
determined that Enforcement should have considered the possibility of
arranging a payment plan for the defendant/respondent to pay at least some
portion of the disgorgement amount waived.

The audit found that in the above-referenced cases, Enforcement should have
considered arranging payment plans so that some portion of the ill-gotten
gains (or losses avoided) could be recaptured by the Government and
provided to injured investors, as appropriate.

Pursuant to Enforcement’s Recommending Financial Waivers and Payment
Plans to the Commission (page 12), partial waivers may be combined with
payment plans. These procedures specifically contemplate situations where a
defendant/respondent’s net worth and/or potential income is insufficient to
satisfy the entire disgorgement order and recommends that partial payments
be made, even if the payment “barely makes an impact on the full amount of
defendants’ ill-gotten gain.”

Recommendation 1:
Enforcement should undertake appropriate actions to ensure that staff
comply with its procedures and consider payment plans and partial waivers
in situations where defendants/respondents have the ability to pay some
portion of the disgorgement amount.



Finding 2:               Assets Stated on the SFS Were Found to be
                         Inaccurate
Enforcement’s procedures (page 3) require staff attorneys to review
defendants/respondents’ SFS to reasonably ensure that the information they
provided is an accurate assessment of their financial condition. The staff
attorneys are required to obtain documentation to support the
defendants/respondents’ assets, liabilities, and income. 15 The staff attorneys
are also required to perform public database searches on the

15
 This was noted in Enforcement’s policies and procedures governing the disgorgement waiver process (at
pages 4 and 5).
Audit of Enforcement’s Disgorgement Waivers                                         February 3, 2009
Report No. 452
                                                 11
defendants/respondents to corroborate their assets, liabilities, and stated
income. We identified two instances where the assets were not accurately
stated on the SFS. Specifically, we were unable to reconcile the amounts
reported on the SFS to the supporting documentation and public database
searches.

Assets totaling at least $386,237.78 for two defendants/respondents were
underreported. Table 4 identifies the two cases in which assets were
underreported on the SFS.


                           Table 4. Assets Underreported

                      Reference         Amount           Assets Under
                      Numbers           Waived             Reported
                     DFD-46           231,633.00              12,533.78
                     DFD-3(b)         320,000.00             373,704.00
                       TOTAL          $944,018.39           $386,237.78
                     Source: Generated by Regis & Associates, PC, based on
                     information provided by Enforcement.


The specific factors involved in each case are described below:

For reference number DFD-46, we noted that the funds identified on the
individual’s bank statement were not included in the individual’s final SFS.
Specifically, the individual’s bank statement identified funds in the amount
of $12,533.78; however, these funds were not reported on the individual’s
SFS. This indicates that the subject individual’s financial status was not
accurately reported on the SFS.

For reference number DFD-3(b), we noted that Enforcement indicated in the
action memorandum that notes receivable for the individual in the amount of
$373,704 were considered to be uncollectible, based on the fact that the
debtor entities were insolvent, illiquid, and unassignable. However, the
notes receivable were included as an asset in the individual’s SFS. We were
unable to obtain adequate supporting documentation such as the audited
financial statements of the debtor entities in question to support the
assertion that they were insolvent, thus, rendering the notes receivable
uncollectible.

Pursuant to the procedures (page 2), “the staff must take special care to make
sure that it has as much information as it can reasonably obtain about the
defendant’s financial condition …and that it has carefully considered whether

Audit of Enforcement’s Disgorgement Waivers                                  February 3, 2009
Report No. 452
                                              12
a waiver is appropriate.” Additionally, “the staff must analyze the SFS to
obtain reasonable assurance that it is accurate.”

We concluded that in the above-identified cases, due to the absence of
adequate supporting documentation, the defendant/respondent’s assets were
underreported.      As a result, the subject defendants/respondents’
disgorgement waiver requests were granted based on the inaccurate financial
information of the defendants/respondents.

Recommendation 2:
Enforcement should undertake appropriate actions to ensure that it reviews
the defendants/respondents’ financial information for accuracy prior to
recommending a disgorgement waiver.


Finding 3:               Adequate Supporting Documentation for
                         Assets, Liabilities, Income, and Expenses of
                         all Defendants/Respondents Should be
                         Obtained and Retained
During        the    disgorgement       waiver     investigation     process,
defendants/respondents submit supporting documentation for assets,
liabilities, income, and expenses reported on the SFS. The supporting
documentation includes bank statements, credit reports, asset titles, vendor
statements, pay stubs, and receipts. The staff attorneys then review the
documentation to corroborate the financial assertions stated on the SFS. We
noted several instances where adequate supporting documentation was not
provided for the assertions on the SFS.

Pursuant to the procedures, the Enforcement staff “must assess how the
specific items on the SFS affect the defendant’s ability to pay and our
practical and legal ability to collect on a monetary judgment.” 16 This
necessitates the review of adequate supporting documentation to corroborate
the amounts stated on the SFS. Furthermore, the procedures direct
Enforcement Staff to obtain information such as bank statements, credit card
statements, brokerage account statements, insurance policies, and mortgage
documentation, where appropriate, to support the defendant/respondent’s
financial assertions.



16
  This was noted in Enforcement’s policies and procedures governing the disgorgement waiver process (at
page 7).
Audit of Enforcement’s Disgorgement Waivers                                          February 3, 2009
Report No. 452
                                                  13
Our audit found that adequate supporting documentation for assets,
liabilities, income and expenses of all defendants/respondents was not always
retained, and some waivers were granted based on unsubstantiated amounts
reported on the defendants/respondents’ SFS. The OIG’s Audit Report 384,
dated January 18, 2005 also revealed similar internal control weaknesses.

Assets not Supported by Adequate Documentation
The assets reported on the SFS for seven of the 72 defendants/respondents
we reviewed were not supported by documentation such as bank statements
and asset titles.    These reported assets included cash, real estate,
automobiles, and notes receivable. As a result of the unavailability of
adequate supporting documentation, we were unable to determine the
validity of assets reported by the defendant/respondent and thus, it is
possible that the defendants/respondents underreported certain assets.
Table 5 identifies the seven cases in which assets on the SFS were not
supported by adequate documentation.

                    Table 5. Assets not Supported by Adequate Documentation

                      Reference          Amount            Amount
                      Numbers            Waived          Unsupported
                     DFD-13               284,385.82         14,900.00
                     DFD-32(b)          9,941,200.00      3,303,000.00
                     DFD-42               392,385.39        419,049.00
                     DFD-27             1,057,542.63         23,315.00
                     DFD-52                31,266.75         23,595.00
                     DFD-23               645,945.00         57,860.96
                     DFD-15               181,822.00        143,780.00
                       TOTAL          $12,534,547.59     $3,985,499.96
                      Source: Generated by Regis & Associates, PC, based on
                      information provided by Enforcement.


The specific factors involved in some of the cases are described below:

For reference number DFD-13, we noted that the action memorandum
identified a vacant lot, valued at $14,900 in the name of individual. This
property was not reported in the individual’s SFS.            In the action
memorandum, Enforcement indicated that it excluded the value of the lot in
the computation of the individual’s net worth because the individual claimed
that the lot was sold to a partner and that since the individual’s net worth
was negative, its waiver analysis would not have changed anyway. However,
Enforcement decided to rely solely on the claim by the individual and did not
pursue the matter to determine true ownership of the property.


Audit of Enforcement’s Disgorgement Waivers                                   February 3, 2009
Report No. 452
                                              14
For reference number DFD-32(b), we were unable to locate documentation
supporting the assets reported by the individual on the SFS. Enforcement
indicated that this documentation was in the possession of another federal
entity and that due to the voluminous nature of the records, copies of the
supporting documentation were not made.

For reference number DFD-42, the individual’s SFS identified assets totaling
$419,049.00; however, no supporting documentation such as bank statements
was provided to support the SFS assertions.

For reference number DFD-27, the individual had several vehicles, only one
of which was included on the SFS. We specifically identified three vehicles
that were not reported on the individual’s SFS. These three vehicles, which
were registered in the names of either the individual or his spouse, were
identified through public database searches on the individual. Enforcement
stated that one of the vehicles was actually a leased vehicle belonging to the
individual’s spouse. Enforcement stated that the second vehicle was not
reported because the vehicle in question was a 1984 Nissan that has virtually
no resale value, and thus, was excluded in the analysis of the individual’s
financial condition. Enforcement stated that the third vehicle actually
belonged to the individual’s son, who shared the same name with the
individual.

Enforcement maintained that it did not further investigate the claim that the
son owned the vehicle because of its nominal value, although it did make
inquiries to confirm the son’s name and that he lived at the same address
where the vehicle was registered. However, Enforcement failed to explain in
the action memorandum as to why the vehicle in question was not reported
by the individual on the SFS. Furthermore, we were unable to obtain
evidence to support the fact that the third vehicle noted above, belonged to
the son of the individual.       In addition, we were unable to obtain
documentation to confirm that one of the vehicles noted above was actually a
leased vehicle.

For reference number DFD-52, the individual’s SFS identified assets in the
amount of $23,595, however, no supporting documentation was provided to
support the SFS’ assertion.

For reference number DFD-23, the individual’s SFS identified bank and
brokerage account balances totaling $57,860.96, however, no supporting
documentation such as bank statements was provided to support the SFS’
assertions. Enforcement stated that prior to the individual’s settlement offer,
he transferred the bulk of his funds ($45,000) to his attorney's trust account

Audit of Enforcement’s Disgorgement Waivers                     February 3, 2009
Report No. 452
                                              15
to pay the disgorgement, and that they discussed the individual’s financial
condition with the Court-Appointed Receiver. However, no documentation
was found in the file to support these contentions.

For reference number DFD-15, the individual’s SFS identified assets in the
amount of $143,780, however, no supporting documentation was provided to
support the SFS assertion.

Liabilities not Supported by Adequate Documentation
The liabilities reported on the SFS for 21 of 72 defendants/respondents were
not supported by any documentation such as mortgage and credit card
statements. These reported liabilities included mortgages, loans, and credit
card debt. As a result of unsupported liabilities, it is possible that the
liabilities do not exist or are inflated. Table 6 identifies the 21 cases in which
liabilities were not supported by documentation.

                          Table 6. Liabilities not Supported by Documentation
                        Reference                               Unsupported
                        Numbers         Amount Waived            Liabilities
                      DFD-2              $  881,000.00         $      200,000.00
                      DFD-21               1,716,590.00                85,000.00
                      DFD-44                 351,537.13                18,275.00
                      DFD-20               2,564,987.00                11,931.38
                      DFD-36               1,573,825.24               186,079.00
                      DFD-13                 284,385.82                 8,000.00
                      DFD-32(a)            9,941,200.00               213,221.08
                      DFD-32(b)            9,941,200.00               810,515.00
                      DFD-52                  31,266.75                71,721.00
                      DFD-46                 231,633.00                 3,500.00
                      DFD-53                  18,308.00                 6,663.00
                      DFD-3(b)               320,000.00               579,753.00
                      DFD-40                 521,580.00                31,340.00
                      DFD-50                 115,000.00                10,051.00
                      DFD-41                 447,600.00                16,705.00
                      DFD-38                 906,326.65                14,000.00
                      DFD-16                  69,004.00               468,083.00
                      DFD-33(a)            5,233,746.00                 8,044.00
                      DFD-30                 640,704.00                14,473.00
                      DFD-15                 181,822.00               143,757.00
                      DFD-24                 223,665.32                 5,500.00
                                                       17
                        TOTAL           $26,254180.91              $2,906,611.46
                       Source: Generated by Regis & Associates, PC, based on
                       information provided by Enforcement.


17
  Reference number DFD-32 involves two defendants/respondents who received a combined waiver
amount of $9,941,200.00; therefore, this amount was counted once in the computation of the total amount.
Audit of Enforcement’s Disgorgement Waivers                                           February 3, 2009
Report No. 452
                                                  16
The specific factors involved in these cases are described below:

For reference number DFD-2, Enforcement indicated in the action
memorandum that the tax liability in the amount of $200,000 reported on the
individual’s SFS was an estimate because the tax returns were never filed,
and that they relied on this assertion when computing the individual’s net
worth. 18 However, as a result of our inability to obtain the needed supporting
documentation, we were unable to determine the validity of the tax liability
reported by the individual.

For reference number, DFD-21, the individual reported liabilities totaling
$85,000 that were unsupported. Of that amount, $65,000 was an estimated
tax liability while the other $20,000 was for attorney fees. Enforcement
verified the individual’s non-filing status with IRS, however, documentation
to support the amount of the individual’s estimated tax liability was not
provided. Also, we were unable to obtain supporting documentation such as
invoices to support the attorney fees reported by the individual on the SFS.
It is worth noting that Enforcement stated that given the individual’s high
negative net worth, the validity of these unsupported liabilities may not have
changed the partial waiver recommendation since they had already collected
every available asset.

For reference number DFD-44, the SFS identified auto loans in the amount of
$18,275. However, no supporting documentation was provided. Enforcement
agreed; although noted that given the individual’s negative net worth, the
auto loans may not have impacted the waiver recommendation.

For reference number DFD-20, the SFS identified a liability for Canadian
property management fees in the amount of $11,931.38. Enforcement stated
that they provided documentation for this liability, totaling $11,931.38;
however, we could not find any supporting documentation for the liability in
the individual’s case file. Enforcement did not believe that its failure to
obtain documentation for this liability affected their assessment of the
individual’s financial condition given his significant documented liabilities.

For reference number DFD-36, we noted a discrepancy between the amount
of an auto loan listed on the individual’s SFS and the individual’s credit
report. The individual’s SFS identified an auto loan in the amount of
$45,000; however, only $25,275 of the total amount of the auto loan was
supported by documentation. This resulted in a difference of $19,725 that
was not supported by documentation. We further noted another discrepancy

18
  Enforcement’s procedures (at page 13) require the staff to confirm with the IRS that the returns were
never filed. We have no evidence to indicate that the staff confirmed this information.
Audit of Enforcement’s Disgorgement Waivers                                              February 3, 2009
Report No. 452
                                                   17
between the credit card debt listed on the individual’s SFS and the
individual’s credit report. Specifically, the individual’s SFS identified credit
card debt in the amount of $222,773; however, only $59,857 of the total credit
card debt was supported by documentation. This resulted in a difference of
$162,916 that was not supported by documentation. The individual’s SFS
also identified accrued real estate taxes in the amount of $3,438 that were
not supported by documentation. We noted that the total amount of auto
loan, credit card debts, and accrued real estate taxes not supported by
documentation was $186,079. According to Enforcement, the unsupported
liabilities in question were mostly the liabilities of the individual’s spouse.
Enforcement indicated that they were, therefore, unable to obtain the credit
report of the individual’s spouse since she was not part of the investigation.
We noted, however, that even though Enforcement claimed that most of the
unsupported liabilities in question belonged to the spouse of the individual,
the total amount of the liabilities was included in the computation of the
individual’s net worth as instructed by the SFS. Enforcement stated that the
individual’s spouse’s liabilities were included in the individual’s SFS because
the state in which they reside is a community property state. We further
noted that the liabilities of the individual and his spouse were not stated
separately on the SFS; therefore, we were unable to determine whether the
unsupported liabilities actually belonged to the spouse.

For reference number DFD-13, Enforcement stated that the individual
provided supporting documentation for the accrued real estate taxes totaling
$8,000 that were reported on the SFS. However, Enforcement stated that
they were unable to provide the supporting documentation because it was in
the custody of a retired staff member and accordingly, consider the
supporting documentation in question to be missing.

For reference number DFD-32(a), the SFS identified credit card debt in the
amount of $326,400. However, supporting documentation was provided for
only $192,178.92 of that amount, leaving a remaining balance of $134,221.08
that was not supported by documentation. The SFS also identified auto loans
in the amount of $29,000, an insurance loan in the amount of $20,000, and
another loan in the amount of $30,000.           However, no supporting
documentation was provided.

For reference number DFD-32(b), the SFS identified a mortgage in the
amount of $2,224,000. However, supporting documentation was provided for
only $1,588,485, leaving $635,515 unsupported. The SFS also identified
other loans and notes payable of $130,000, accrued real estate taxes of
$35,000, and accrued income taxes of $10,000. Enforcement stated that
documentation supporting the individual’s assets were currently in the

Audit of Enforcement’s Disgorgement Waivers                      February 3, 2009
Report No. 452
                                              18
possession of another federal entity. Also, Enforcement stated that due to the
voluminous nature of the records, copies of the supporting documentation
were not made.

For reference number DFD-52, the SFS identified auto loans of $3,069, credit
card debt of $15,152, other loans or notes payable of $4,000,
judgments/settlements of $500, taxes of $34,000, and legal fees of $15,000.
However, no supporting documentation was provided.

For reference number DFD-46, the SFS identified credit card debt in the
amount of $3,500. However, no supporting documentation was provided.

For reference number DFD-53, we determined that documentation provided
to support the credit card debt amounted to $3,727 of the total reported debt
of $10,390. This resulted in a difference of $6,663 that was not supported by
documentation. We noted that Enforcement provided partial documentation
to support the credit card debt; however, the full amount of credit card debt
reported on the individual’s SFS was considered in the computation of the
individual's net worth.

For reference number DFD-3(b), the SFS identified credit card debt in the
amount of $181,617 and a mortgage in the amount of $398,136. However, no
supporting documentation was provided.

For reference number DFD-40, the SFS identified credit card debt in the
amount of $31,340. However, no supporting documentation was provided.

For reference number, DFD-50, the SFS identified auto loans in the amount
of $44,730; however, supporting documentation was provided for only $34,679
of that amount. This resulted in a difference of $10,051 that was not
supported by documentation.       In the absence of adequate supporting
documentation, we were unable to determine the validity of the auto loan
reported by the individual.

For reference number DFD-41, the SFS identified credit card debt in the
amount of $25,370; however, supporting documentation was provided for only
$15,515. This resulted in a difference of $9,855 that was not supported by
documentation. Also, no supporting documentation was provided for medical
bills in the amount of $6,850.

For reference number DFD-38, the SFS identified notes payable in the
amount of $14,000. However, no supporting documentation was provided.
Enforcement maintained that the lack of documentation was not relevant

Audit of Enforcement’s Disgorgement Waivers                    February 3, 2009
Report No. 452
                                              19
because the staff verified and obtained all of the individual’s assets (except
for retirement funds and the like).

For reference number, DFD-16, we noted that liabilities totaling $468,083
were not supported by adequate documentation. The unsupported liabilities
consisted of legal fees of $443,000, credit card debt of $24,083, and an
installment loan of $1,000 from the individual’s mother. Enforcement stated
that the Commission was notified that the $1,000 loan was disregarded due
to a lack of adequate supporting documentation for the loan. However, we
noted that the individual’s SFS presented in the action memorandum
included this loan in the computation of the individual’s net worth.
Enforcement stated that this was a partial waiver case where the individual
had a negative net worth. The payment plan was based on the individual’s
income and an assumption that the individual had a net worth of zero.

For reference number, DFD-33(a), the individual reported auto loans totaling
$56,772 on the SFS. However, the individual’s credit report indicated auto
loans in the amount of $48,728. This resulted in a difference of $8,044 that
was not supported by documentation.

For reference number DFD-30, the SFS identified credit card debt in the
amount of $12,673 and real estate taxes in the amount of $1,800. However,
no supporting documentation was provided. According to Enforcement, the
documents relating to these liabilities have been misplaced as a result of the
trial counsel’s files being relocated several times during office moves.

For reference number DFD-15, the SFS identified credit card debt in the
amount of $74,783; however, supporting documentation was provided for only
$16,960. This resulted in a difference of $57,823 that was not supported by
documentation.     Also, no supporting documentation was provided for
installment loans in the amount of $899, loans to a third party in the amount
of $10,200, a debt to the IRS in the amount of $70,000 and a liability of
$4,835 for the “Operation of a Business.”

For reference number DFD-24, the SFS identified legal fees in the amount of
$4,500 and medical fees in the amount of $1,000. However, no supporting
documentation was provided. Enforcement stated that they based their
assessment on the staff attorney’s personal knowledge (e.g., a pretrial
conference) of the case.

Monthly Income not Supported by Adequate Documentation
In addition, the monthly income reported on the SFS for five of 72
defendants/respondents was not supported by any documentation such as pay
Audit of Enforcement’s Disgorgement Waivers                    February 3, 2009
Report No. 452
                                              20
stubs.   The reported monthly income included salaries, wages, and
commissions and fees. Unsupported income could be problematic because of
the possibility that a defendant/respondent underreports his/her income.
Table 7 below identifies the five cases in which monthly income was not
supported by documentation.

                      Table 7. Monthly Income not Supported by
                          Documentation (Annualized)


                                                        Annualized
                  Reference                             Unsupported
                   Numbers         Amount Waived           Income
                 DFD-2                  881,000.00          10,655.94
                 DFD-37               1,391,715.83          30,000.00
                 DFD-47                 196,367.00        120,000.00
                 DFD-52                  31,266.75        197,892.00
                 DFD-15                 181,822.00          83,004.00
                   TOTAL             $2,682,171.58       $441,551.94
                Source: Generated by Regis & Associates, PC, based on information
                provided by Enforcement.

The specific factors involved in these cases are described below:

For reference number DFD-2, we noted that the individual’s bank statement
identified four deposits totaling $10,655.94 that were not reported on the
SFS. Enforcement was unable to provide us with several months of bank
statements to enable us to determine whether the deposits noted above were
non-recurring transactions. Subsequent to our detection of the deposits in
question, Enforcement stated that they contacted the bank and the bank
confirmed that the deposits were one-time transactions. In the absence of
three or more months of bank statements, we were unable to independently
confirm the nature and frequency of those unreported deposit transactions.

For reference number DFD-37, the SFS identified consulting fees of $2,500
per month. This income, for which no supporting documentation was
provided (although, Enforcement stated that documentation had been
provided), totaled $30,000 when annualized.

For reference number DFD-47, the SFS identified salaries/wages of $10,000
per month.      No supporting documentation was provided for these
salaries/wages which, when annualized, totaled $120,000.

For reference number DFD-52, the SFS identified Spot Forex commissions of
$15,000 per month, debit card machine receipts of $320 per month, and
Audit of Enforcement’s Disgorgement Waivers                                    February 3, 2009
Report No. 452
                                              21
Social Security income of $1,171 per month. This income, for which no
supporting documentation was provided, totaled $16,491, and when
annualized, $197,892.

For reference number DFD-15, the SFS identified salaries/wages of $1,353
per month, and commissions/advances in the amount of $5,564 per month.
This income, for which no supporting documentation was provided, totaled
$6,917, and when annualized, $83,004. Enforcement stated that some
documentation was provided while other documentation was reviewed by the
staff during the waiver process but was not retained.

Monthly Expenses not Supported by Adequate Documentation
The monthly expenses reported on the SFS for 23 of the 72
defendants/respondents were not supported by any documentation, such as
vendor statements and receipts. The reported monthly expenses included
mortgage, rent, utilities, insurance, and food. In the absence of adequate
supporting documentation, we were unable to determine the validity of the
monthly expenses reported by the defendants/respondents. If expenses are
unsupported, it is possible that they are non-existent or inflated.
Enforcement stated that most of the expenses seemed reasonable to them,
and therefore, they did not request or require supporting documentation.
However, Enforcement’s procedures do not clearly define the parameters for
reasonable expenses that do not require the submission of supporting
documentation. We classified the 23 instances of monthly expenses not being
adequately supported as involving either large or small monthly expense.

Large Monthly Expenses
As indicated in Table 8(a), we found nine instances where, in our opinion,
either the total amount claimed or an individual expense was large enough
that it should have been verified. In these instances, the documentation
could have included leases, mortgage statements, canceled checks, insurance
bills/statements, attorney bills/statements, etc.




Audit of Enforcement’s Disgorgement Waivers                  February 3, 2009
Report No. 452
                                              22
                  Table 8(a). Large Monthly Expenses not Supported by
                                Documentation (Annualized)

                                                          Annualized
                       Reference          Amount         Unsupported
                       Numbers            Waived           Expenses
                      DFD-53            $ 18,308.00       $ 53,448.00
                      DFD-11               398,288.00       181,776.00
                      DFD-32(b)          9,941,200.00       231,000.00
                      DFD-47               196,367.00        78,000.00
                      DFD-52                31,266.75       211,272.00
                      DFD-30               640,704.00        54,564.00
                      DFD-39               553,557.11       124,993.56
                      DFD-43               377,379.00       123,600.00
                      DFD-15               181,822.00        95,952.00
                         Total        $12,338,891.86     $1,154,605.56
                       Source: Generated by Regis & Associates, PC, based on
                       information provided by Enforcement.

The specific factors involved in these cases are described below:

For reference number DFD-53, the SFS identified legal fees in the amount of
$1,000 per month, mortgage payments in the amount of $660 per month,
credit card payments in the amount of $600 per month, and miscellaneous
expenses totaling $2,194 per month. These expenses totaled $4,454, and
when annualized, $53,448.

For reference number DFD-11, the individual reported monthly expenses
totaling $15,148, which when annualized, amounted to $181,776, on the SFS,
for which no supporting documentation was provided. We noted that the
$15,148 unsupported expenses included legal fee payments of $8,000.

For reference number DFD-32(b), the individual reported monthly expenses
totaling $19,250, which when annualized, amounted to $231,000, on the SFS,
for which no supporting documentation was provided. We noted that the
$19,250 unsupported expenses included monthly mortgage payments of
$6,000.

For reference number DFD-47, the SFS identified mortgage payments of
$5,000 per month, food expenses of $600 per month, utilities of $1,000 per
month, and insurance premium of $500 per month. We noted documentation
(other than for the food expenses) could have been obtained.          The
unsupported expenses, excluding the food, totaled $6,500, and when
annualized, amounted to $78,000.


Audit of Enforcement’s Disgorgement Waivers                                    February 3, 2009
Report No. 452
                                              23
For reference number DFD-52, the individual reported monthly expenses
totaling $17,606, which when annualized, amounted to $211,272, on the SFS,
for which no supporting documentation was provided. We noted that the
$17,606 unsupported expenses included monthly rental payments of $4,100.
Enforcement indicated that they had discussed the individual’s financial
condition with the Court-Appointed Receiver, but provided no documentation
to support this contention.

For reference number DFD-30, the SFS identified mortgage/rent of $1,757
per month, utilities of $580 per month, loan payments of $1,000 per month,
real estate taxes of $160 per month, credit card payments of $400 per month,
and medical expenses of $650 per month. These expenses, for which no
supporting documentation was provided, but which given the sums involved,
should have been verified, totaled $4,547, and when annualized, amounted to
$54,564.

For reference number DFD-39, the SFS identified utilities of $1,000 per
month; however the documentation supported only $683.87, leaving $316.13
unsupported.     Also, no supporting documentation was provided for
mortgage/rent of $1,500 per month, food expenses of $2,000 per month, loan
payments of $700 per month, real estate taxes of $500 per month, insurance
premiums of $200 per month, monthly medical expenses of $200, automobile
expenses of $700 per month, college tuition of $3,900 per month, and health
insurance premiums of $400 per month.           Given the sums involved,
supporting documentation should have been obtained. These expenses
totaled $10,416.13 and when annualized, amounted to $124,993.56.

For reference number DFD-43, the individual reported monthly expenses
totaling $10,300, which when annualized, amounted to $123,600, on the SFS,
for which no supporting documentation was provided. We noted that the
$10,300 unsupported expense included monthly rental payments of $4,000.
According to Enforcement, they verified that the individual is subject to an
IRS payment plan ($3,000 per month), reviewed the individual’s credit report
to determine the reasonableness of the credit card and revolving debt
($17,000), and verified that the individual rented a home, although they
provided no documentation to support these contentions.




Audit of Enforcement’s Disgorgement Waivers                   February 3, 2009
Report No. 452
                                              24
For reference number DFD-15, the SFS identified mortgage/rent of $915 per
month, food expenses of $350 per month, utilities of $495 per month, loan
payments of $988 per month, insurance premiums of $588 per month,
automobile expenses of $175 per month, and business expenses of $4,835 per
month. These expenses, for which no supporting documentation was
provided, but which given the sums involved, should have been verified,
totaled $7,996 (excluding the food), and when annualized, amounted to
$95,952.

Small Monthly Expenses
For the 14 instances listed in Table 8(b), Enforcement stated that the
expenses appeared to be reasonable. Thus, they did not obtain supporting
documentation. However, it is worth noting that the Commodity Futures
Trading Commission (CFTC) requires persons under investigation to provide
“True and exact copies of all monthly bills/statements for the following
household expenses for the past 3 months: gas; electric; water; automobile
and other transportation expenses; telephone; cable; loan payments (car,
etc.); insurance premiums; subscriptions; tuition; installment payments; and
dues.” 19

                 Table 8(b). Small Monthly Expenses not Supported by
                                Documentation (Annualized)
                                                          Annualized
                         Reference         Amount         Unsupported
                         Numbers           Waived          Expenses
                        DFD-36          $ 1,573,825.24    $ 33,000.00
                        DFD-14              283,097.00       25,164.00
                        DFD-17               45,584.00       39,600.00
                        DFD-31            1,615,774.83       32,232.00
                        DFD-37            1,391,715.83       39,696.00
                        DFD-42              392,385.39       18,024.00
                        DFD-46              231,633.00       11,280.00
                        DFD-40              521,580.00       24,600.00
                        DFD-41              447,600.00       19,092.00
                        DFD-23              645,945.00       20,796.00
                        DFD-12              297,559.00        5,520.00
                        DFD-7             6,918,335.00       24,300.00
                        DFD-26              708,521.00       20,676.00
                        DFD-50              115,000.00       34,680.00
                           Total        $15,188,555.29     $348,660.00
                        Source: Generated by Regis & Associates, PC, based on
                        information provided by Enforcement.




19
 CFTC Form 12, Attachments to Financial Disclosure Statement, approved May 2001 at pages 22-23.
Audit of Enforcement’s Disgorgement Waivers                                      February 3, 2009
Report No. 452
                                               25
The specific factors involved in these cases are described below:

For reference number DFD-36, the SFS identified utilities of $1,150 per
month, lawn care payments of $600 per month, and monthly travel payments
of $1,000 per month. These expenses totaled $33,000 when annualized.

For reference number DFD-14, the SFS identified utilities of $625 per month,
food expenses of $450 per month, insurance premiums of $468 per month,
medical/dental insurance of $179 per month, auto expenses of $260 per
month, and other expenses of $115 per month. These expenses totaled
$25,164 when annualized.

For reference number DFD-17, the SFS identified mortgage/rent of $1,600
per month, utilities of $500 per month, insurance premiums of $400 per
month, automobile expenses of $300 per month, and child care expenses of
$500 per month. These expenses totaled $39,600 when annualized.

For reference number DFD-31, the SFS identified mortgage/rent of $1,800
per month, food expenses of $300 per month, utilities of $150 per month, car
insurance of $50 per month, and car lease payments of $386 per month.
These expenses totaled $32,322 when annualized.

For reference number DFD-37, the SFS identified rent of $1,350 per month,
food expenses of $600 per month, utilities of $490 per month, insurance of
$285 per month, restitution of $500 per month, and life insurance premiums
of $83 per month. These expenses totaled $39,696 when annualized.

For reference number DFD-42, the SFS identified medical expenses of $400
per month, automobile expenses of $250 per month, real estate taxes of $152
per month, income taxes of $500 per month, house maintenance expenses of
$100, income taxes of $100 per month, and entertainment expenses of $100.
These expenses totaled $18,024 when annualized. Enforcement stated that
they discussed the individual’s financial condition with the Court-Appointed
Receiver, although provided no documentation to support this contention.

For reference number DFD-46, the SFS identified insurance of $500 per
month, automobile expenses of $150 per month, and miscellaneous expenses
of $290 per month. These expenses totaled $11,280 when annualized.

For reference number DFD-40, the SFS identified utilities of $1,050 per
month and insurance premiums of $1,000 per month. These expenses totaled
$24,600 when annualized.


Audit of Enforcement’s Disgorgement Waivers                         February 3, 2009
Report No. 452
                                              26
For reference number DFD-41, the SFS identified utilities of $550 per month
and insurance premiums of $1,041 per month. These expenses totaled
$19,092 when annualized.

For reference number DFD-23, the SFS identified utilities of $285 per month,
real estate taxes of $165 per month, insurance premiums of $331 per month,
medical expenses of $514 per month, homeowner’s dues of $150 per month,
and auto loan payments of $288 per month. These expenses totaled $20,796
when annualized.

For reference number DFD-12, the SFS identified office utilities of $400 per
month, and insurance payments of $60 per month. These expenses totaled
$5,520 when annualized.

For reference number DFD-7, the SFS identified medical expenses of $200
per month, real estate taxes of $225 per month, automobile expenses of $400
per month, church tithes of $550 per month, orthodontist expenses of $150
per month, and tuition fees of $500 per month. These expenses totaled
$24,300 when annualized. According to Enforcement, their assessment was
influenced by the fact that the individual had been sentenced to a substantial
prison term.

For reference number DFD-26, the SFS identified mortgage/rent of $406 per
month, utilities of $250 per month, payments on loans of $265 per month,
real estate taxes of $100 per month, insurance premiums of $200 per month,
medical expenses of $450 per month, and telephone expenses of $52 per
month. These expenses totaled $20,676 when annualized.

For reference number DFD-50, the SFS identified utilities of $890 per month,
insurance premiums of $200 per month, medical expenses of $530 per month,
and transportation expenses of $1,270 per month, which given the sums
involved, should have been verified. These expenses totaled $2,890, and
when annualized, amounted to $34,680.

Recommendation 3:
Enforcement should clarify its internal control policies and procedures
regarding when supporting documentation, such as receipts, vendor invoices,
pay stubs, etc. should be obtained and retained for the assets, liabilities,
income, and expenses shown in the Sworn Financial Statements and
undertake actions to ensure that staff comply with these clarified procedures.




Audit of Enforcement’s Disgorgement Waivers                     February 3, 2009
Report No. 452
                                              27
Finding 4:               Sworn Financial Statements Should be
                         Retained, Signed, and Notarized for all
                         Defendants/Respondents
“The SFS is the foundation for deciding to recommend a waiver. Defendants
who want the Commission to waive payment generally must submit an
SFS.” 20 The SFS are provided in two forms: one for individuals and the other
for entities. The forms for both individuals and entities list examples of the
types of assets, liabilities, income, and expenses, and are formatted to
encourage a defendant/respondent to fill out completely the information
requested, as well as highlight for the staff any information that is missing.
The staff is required to check that the defendant/respondent specified the
date of the statement, filled in all columns of information, signed the
necessary consent, obtained a notarized signature on the SFS and the
consents, and attached all required supporting documents. We identified one
instance where the SFS was not provided as part of the
defendants/respondents’ case files. We further found that the SFS for one
defendant/respondent was not signed and notarized. Tables 9 and 10 identify
the two cases in which the SFS were not included in the case files or signed
and notarized.

                      Table 9. SFS not Provided

                        Reference
                         Numbers          Amount Waived
                       DFD-18              $ 5,623,290.00
                          Total             $5,623,290.00
                      Source: Generated by Regis & Associates,
                      PC, based on information provided by
                      Enforcement.


                      Table 10. SFS not Signed and Notarized

                         Reference
                         Numbers            Amount Waived
                       DFD-30                 640,704.00
                           Total             $640,704.00
                      Source: Generated by Regis & Associates,
                      PC, based on information provided by
                      Enforcement.




20
  This was noted in Enforcement’s policies and procedures governing the disgorgement waiver process (at
page 2).
Audit of Enforcement’s Disgorgement Waivers                                          February 3, 2009
Report No. 452
                                                  28
Pursuant to the Commission’s Rule of Practice 630(b), 21 “any respondent who
asserts an inability to pay disgorgement, interest, or penalties may be
required to file a sworn financial disclosure statement and to keep that
statement current. The financial statement shall show the respondent’s
assets, liabilities, income or other funds received, and expenses or other
payments ….” Additionally, in order for the assertions in the financial
statements to be recognized as having been provided under oath, the
defendant/respondent making the assertions must sign the financial
statements, and must appear before a notary who will attest to their
identity. 22

We found that Enforcement was not always in compliance with its procedures
for obtaining signed and notarized Sworn Financial Statements, which may
raise concerns about the reasonableness and reliability of the SFS. In these
few cases, Enforcement inappropriately recommended the disgorgement
waivers for the subject defendants/respondents, without utilizing a suitable
means of verification to validate the defendants/respondents’ request for
disgorgement waivers.

Recommendation 4:
Enforcement should undertake appropriate actions to ensure that Sworn
Financial Statements from all defendants/respondents who request
disgorgement waivers are retained.         We further recommend that
Enforcement undertake appropriate actions to ensure that all Sworn
Financial Statements are signed and notarized.


Finding 5:               The “Checklist for Maintaining, Reviewing,
                         and    Confirming      Sworn     Financial
                         Statements (SFS)” Should be Retained and
                         Signed by a Supervisor

While reviewing the SFS, the “Checklist for Maintaining, Reviewing, and
Confirming Sworn Financial Statements” (the Checklist) is required to be
completed and signed by an Enforcement supervisor. The Checklist ensures
that Enforcement consistently keeps all necessary records and documents the
scope of the staff review. In addition, a copy of the completed Checklist must
be maintained in the appropriate office files. Our review disclosed 18
instances where the Checklists were not provided. Also, we noted six
21
  17 C.F.R. § 201.630(b).
22
 This was noted in Enforcement’s policies and procedures governing the disgorgement waiver process (at
page 4).
Audit of Enforcement’s Disgorgement Waivers                                         February 3, 2009
Report No. 452
                                                 29
instances where the Checklists were not signed by an Enforcement
supervisor. Tables 11 and 12 identify the 24 cases in which Checklists were
not provided or were not signed by the Supervisors.

                                Table 11. Checklist not Provided

                                   Reference
                                   Numbers             Amount Waived
                                  DFD-48                  $ 151,898.11
                                  DFD-20                    2,564,987.00
                                  DFD-9                     1,365,711.00
                                  DFD-19                    2,589,987.00
                                  DFD-36                    1,573,825.24
                                  DFD-31                    1,615,774.83
                                  DFD-13                      284,385.82
                                  DFD-32(a)                 9,941,200.00
                                  DFD-32(b)                 9,941,200.00
                                  DFD-47                      196,367.00
                                  DFD-3(b)                    320,000.00
                                  DFD-3(a)                    320,000.00
                                  DFD-3(c,d)                  320,000.00
                                  DFD-33(b)                 5,233,746.00
                                  DFD-1                   13,591,889.00
                                                                       23
                                  DFD-22                   845,440.95
                                  DFD-49                      134,524.00
                                  DFD-7                     6,918,335.00
                                                                       24
                                     Total             $47,328,070.95
                                   Source: Generated by Regis & Associates, PC, based on
                                   information provided by Enforcement.




23
   In this waiver case, the staff relied on the entity’s financial statements and not the SFS and therefore
maintained that they did not need to complete the SFS checklist.
24
   Reference number DFD-32 involves two defendants/respondents who received combined waivers
totaling $9,941,200.00. Reference number DFD-3 involves three defendants/respondents who received
combined waivers totaling $320,000.00. Therefore, these amounts were each counted once in the
computation of the total amount.

Audit of Enforcement’s Disgorgement Waivers                                                February 3, 2009
Report No. 452
                                                      30
                  Table 12. Checklist not Signed by Supervisor

                              Reference
                              Numbers         Amount Waived
                             DFD-21             $1,716,590.00
                             DFD-46                231,633.00
                             DFD-51                 39,848.00
                             DFD-29                601,314.62
                             DFD-8               2,902,519.00
                             DFD-15                181,822.00
                                Total           $5,673726.62
                             Source: Generated by Regis & Associates,
                             PC, based on information provided by
                             Enforcement.

Pursuant to the procedures (page 3), “it is important that the staff document
its review of the SFS. To that end, while reviewing the SFS, the staff must
also complete Exhibit 1, the ‘Checklist for Maintaining, Reviewing, and
Confirming SFS.’ The Checklist will ensure that the Division consistently
keeps all necessary records and documents the scope of the staff review. A
copy of the completed Checklist must be kept in the branch files.”

We found that Enforcement did not implement adequate internal controls to
ensure proper administration and oversight of its disgorgement review
process, which requires the Checklists to be always completed and signed by
a supervisor.

Recommendation 5:
Enforcement should undertake appropriate actions to ensure that the
Checklist is always retained and signed by the appropriate supervisor for
disgorgement waiver cases.


Finding 6: Credit Reports, Bank Statements, and/or
           Income Tax Returns for all
           Defendants/Respondents Should be Retained
           and/or Signed
When recommending a disgorgement waiver, the staff attorneys are required
to obtain credit reports.       The staff attorneys must obtain the
defendant/respondent’s written consent to obtain the credit report, and then
compare the information on it to the SFS, and question discrepancies. In
addition, the bank statements and income tax returns, including the
schedules and attachments associated with them, are required. The staff
Audit of Enforcement’s Disgorgement Waivers                             February 3, 2009
Report No. 452
                                              31
attorneys must compare these documents to the SFS and examine what
appear to be inconsistencies or issues. Such issues may include tax return
schedules demonstrating the existence of a safe deposit box, dividend income,
interest income, capital gains and assets not reported on the SFS. During
our review of the required supporting documentation, we noted that credit
reports, bank statements, and income tax returns were not provided for 15 of
the 72 defendants/respondents. This hampers Enforcement’s ability to
corroborate a person’s stated financial condition. We further noted 19
instances where the income tax returns were not signed by the
defendants/respondents, and as a result, we were unable to determine the
authenticity of the returns.

Additionally, we noted that a similar finding was identified in the OIG’s
Audit Report 384, dated January 18, 2005. Tables 13 and 14 identify 35
cases in which credit reports, bank statements, and income tax returns were
not provided or were not signed by the defendants/respondents. 25

With regard to the credit reports, bank statements, and income tax returns
that were not provided, Enforcement stated that they were sure that most of
those documents were obtained, however, copies of those documents were not
retained.

As a result of the income tax returns being unsigned, we were unable to
determine the authenticity of those documents. Enforcement stated that
they did not deem it necessary for the defendants/respondents to submit
signed copies of their income tax returns because the income tax returns only
serve as support for the income items reported on the SFS. Thus, as long as
the SFS are signed and notarized, under penalty of perjury, the
defendants/respondents would provide authentic income tax returns.

However, the review found instances where the defendants/respondents
failed to either provide the SFS or signed and notarized SFS. Thus, it would
be    an     added    control  measure     for   Enforcement     to    require
defendants/respondents to provide signed copies of their income tax returns.




25
  In some cases, Enforcement did not obtain a copy of a tax return because the individual did not have a
copy either because a return was not filed or kept. Enforcement’s procedures (at page 13, footnote 14)
require that the staff confirm with the IRS that a tax return was not filed or obtain a copy. This requirement
was not always followed (e.g., DFD-12).
Audit of Enforcement’s Disgorgement Waivers                                                 February 3, 2009
Report No. 452
                                                     32
                                 Table 13. No credit reports, bank statements,
                                 or income tax returns provided

                                   Reference
                                   Numbers           Amount Waived
                                                                   26
                                 DFD-2               $ 881,000.00
                                 DFD-20                 2,564,987.00
                                 DFD-9                  1,365,711.00
                                 DFD-19                 2,589,987.00
                                 DFD-24                   223,665.32
                                 DFD-31                 1,615,774.83
                                 DFD-42                   392,385.39
                                 DFD-47                   196,367.00
                                 DFD-40                   521,580.00
                                 DFD-25                   222,040.00
                                 DFD-12                   297,559.00
                                 DFD-49                   134,524.00
                                 DFD-30                   640,704.00
                                 DFD-18                 5,623,290.00
                                 DFD-35                 2,121,871.76
                                     Total            $19,391,446.30
                                 Source: Generated by Regis & Associates,
                                 PC, based on information provided by
                                 Enforcement.




26
 This exception (i.e., the lack of a tax return) for DFD-2 is also discussed in Finding 3 at Table 6.
Audit of Enforcement’s Disgorgement Waivers                                               February 3, 2009
Report No. 452
                                                   33
                             Table 14. Income tax returns not
                            signed by the defendants/respondents 27

                                Reference
                                Numbers           Amount Waived
                               DFD-53               $     18,308.00
                               DFD-11                    398,288.00
                               DFD-42                    392,385.39
                               DFD-52                     31,266.75
                               DFD-46                    231,633.00
                               DFD-51                     39,848.00
                               DFD-8                   2,902,519.00
                               DFD-45                    315,300.00
                               DFD-25                    222,040.00
                               DFD-38                    906,326.65
                               DFD-16                     69,004.00
                               DFD-33(a)               5,233,746.00
                               DFD-33(b)               5,233,746.00
                               DFD-6                  15,565,511.00
                               DFD-7                   6,918,335.00
                               DFD-35                  2,121,871.76
                               DFD-32(a)               9,941,200.00
                               DFD-32(b)               9,941,200.00
                               DFD-36                  1,573,825.24
                                                                  28
                                  Total           $46,881,407.79
                                Source: Generated by Regis & Associates,
                                PC, based on information provided by
                                Enforcement.

Pursuant to Enforcement’s procedures (pages 4 through 5), “the staff must
obtain a credit report on each defendant seeking a waiver.” Furthermore, the
procedures state, “The SFS requires the defendant to attach copies of the
following documents to the SFS:

     •   Federal income and gift tax returns, including schedules and
         attachments associated with them;
     •   Any financial statement prepared by the defendant, including
         bankruptcy schedules; and
     •   Loan Documents.”


27
   In several instances (DFD-36, DFD-11, DFD-53, DFD-35, and DFD-8), the tax return was signed (or
stamped) by the preparer, but not by the individual.
28
   Reference numbers DFD-33 and DFD-32 each involve two defendants/respondents who received
combined waivers totaling $5,233,746.00 and $9,941,200.00 respectively. Therefore, these amounts were
counted once in the computation of the total amount.
Audit of Enforcement’s Disgorgement Waivers                                          February 3, 2009
Report No. 452
                                                 34
The procedures also state (page 5), “With respect to a defendant whose
disgorgement equals or exceeds $100,000, in addition to the documents
required above, the defendant must provide copies of the following:

   •   Brokerage and commodities account statements; and
   •   Bank and other financial institution account statements.”

We found that Enforcement did not always comply with these procedures and
as a result, in those instances, disgorgement waivers for the subject
defendants/respondents were based solely on the defendants/respondents’
unsupported SFS.

Recommendation 6:
Enforcement should undertake appropriate actions to ensure that credit
reports, bank statements, and income tax returns are always retained in all
defendants/respondents’ case files and comply with its procedures regarding
obtaining tax returns. We further recommend that Enforcement consider
requiring the income tax returns to be signed by the defendants/respondents
to ensure authenticity.


Finding 7:            Public Database Searches Should be
                      Performed for the Defendants/Respondents
Enforcement retained a contractor to provide the staff attorneys with
information regarding the defendants/respondents from the contractor’s
database. Access to the information is obtained through Autotrack, which is
used to perform credit checks on individuals. The company is able to provide
information such as aliases and name changes, safe deposit box information,
property ownership, names of ex-spouses, mortgages and property tax
records, and motor vehicle information. Every office has at least one
designated Autotrack technician to assist the staff attorneys in obtaining the
database search information for the defendants/respondents. Additionally,
the staff attorneys must search Lexis/Nexis and the internet for information
about the defendants/respondents. These resources provide useful leads to
further verify the accuracy of the financial information provided by the
defendants/respondents on the SFS. The staff attorneys must compare the
information obtained from the database searches to the SFS and question
discrepancies.

Our review of the defendants/respondents’ case files identified only one
instance where a public database search was not performed. In this instance,
Audit of Enforcement’s Disgorgement Waivers                    February 3, 2009
Report No. 452
                                              35
the defendant/respondent’s SFS assertions were not corroborated to a public
database to question discrepancies and identify hidden assets. Table 15
identifies the one instance noted where a public database search was not
performed.

                           Table 15. No Public Database Search
                              Reference
                               Number              Amount Waived
                           DFD-19                       $2,589,987.00
                               Total                    $2,589,987.00
                         Source: Generated by Regis & Associates, PC,
                         based on information provided by Enforcement.


Pursuant to Enforcement’s procedures (page 4), “the staff must compare
information from the database to the SFS and question discrepancies.”
Although overall, Enforcement was compliant with these requirements in all
but one instance, it may be worthwhile to review its procedures to ensure
that public database searches are always conducted.

Recommendation 7:
Enforcement should review its internal control policies and procedures to
ensure that public database searches are performed for all
defendants/respondents.


Finding 8:            Formal Training Programs Should be
                      Instituted for Staff Attorneys Responsible
                      for Reviewing the Financial Records of
                      Defendants/Respondents
Based on our discussions with Enforcement personnel, we noted that the staff
attorneys are not provided formal training on the process of determining
when waiver recommendations are appropriate. Providing formal training
for the staff attorneys would build a comprehensive understanding of the
disgorgement waivers review process. Given the complexity and the level of
sensitivity, it is critical to provide formal training to explain the different
aspects of the disgorgement waiver review process and explain how to
analyze financial information. We further note that a similar condition was
reported in the OIG’s Audit Report 384, dated January 18, 2005.

Pursuant to Enforcement’s procedures (at page 2), “during an investigation,
the staff’s principal focus is on liability and the merits of the case. However,

Audit of Enforcement’s Disgorgement Waivers                              February 3, 2009
Report No. 452
                                              36
the staff may also begin considering a potential defendant’s financial
condition and ability to pay.” In order to consider a defendant/respondent’s
financial condition and ability to pay, the staff attorneys should be trained in
evaluating the SFS and identifying the facts and circumstances that warrant
waiver recommendations.

Enforcement maintained that on-the-job training was adequate preparation
for the staff attorneys and that they recently included a session on waivers in
their fall training program. However, without formal periodic training, the
staff attorneys are unable to properly analyze the financial information and
make an assessment of the defendants/respondents’ financial position.

Recommendation 8:
Enforcement should clarify their internal control policies and procedures to
ensure that the staff attorneys receive periodic formal training in the
disgorgement waiver process.




Audit of Enforcement’s Disgorgement Waivers                      February 3, 2009
Report No. 452
                                              37
                                                                     Appendix I




                                    Acronyms



       CFTC                   Commodity Futures Trading Commission
       DFD                    Defendant/Respondent
       FY                     Fiscal Year
       OIG                    Office of Inspector General
       SFS                    Sworn Financial Statements




Audit of Enforcement’s Disgorgement Waivers                   February 3, 2009
Report No. 452
                                              38
                                                                               Appendix II




                      Schedule of Cost Savings



                       Table 16. Underreported Assets

                        Reference        Amount
                        Numbers          Waived          Cost Savings
                       DFD-46          $ 231,633.00      $ 12,533.78
                       DFD-3(b)           320,000.00       373,704.00
                         TOTAL          $944,018.39       $386,237.78
                       Source: Generated by Regis & Associates, PC, based
                       on information provided by Enforcement




Audit of Enforcement’s Disgorgement Waivers                                 February 3, 2009
Report No. 452
                                              39
                                                                  Appendix III




                      List of Recommendations

Recommendation 1:
Enforcement should undertake appropriate actions to ensure that staff
comply with its procedures and consider payment plans and partial waivers
in situations where defendants/respondents have the ability to pay some
portion of the disgorgement amount.

Recommendation 2:
Enforcement should undertake appropriate actions to ensure that it reviews
the defendants/respondents’ financial information for accuracy prior to
recommending a disgorgement waiver.

Recommendation 3:
Enforcement should clarify its internal control policies and procedures
regarding when supporting documentation, such as receipts, vendor invoices,
pay stubs, etc. should be obtained and retained for the assets, liabilities,
income, and expenses shown in the Sworn Financial Statements and
undertake actions to ensure that staff comply with these clarified procedures.

Recommendation 4:
Enforcement should undertake appropriate actions to ensure that Sworn
Financial Statements from all defendants/respondents who request
disgorgement waivers are retained.         We further recommend that
Enforcement undertake appropriate actions to ensure that all Sworn
Financial Statements are signed and notarized.

Recommendation 5:
Enforcement should undertake appropriate actions to ensure that the
Checklist is always retained and signed by the appropriate supervisor for
disgorgement waiver cases.




Audit of Enforcement’s Disgorgement Waivers                    February 3, 2009
Report No. 452
                                              40
Recommendation 6:
Enforcement should undertake appropriate actions to ensure that credit
reports, bank statements, and income tax returns are always retained in all
defendants/respondents’ case files and comply with its procedures regarding
obtaining tax returns. We further recommend that Enforcement consider
requiring the income tax returns to be signed by the defendants/respondents
to ensure authenticity.

Recommendation 7:
Enforcement should review its internal control policies and procedures to
ensure that public database searches are performed for all
defendants/respondents.

Recommendation 8:
Enforcement should clarify their internal control policies and procedures to
ensure that the staff attorneys receive periodic formal training in the
disgorgement waiver process.




Audit of Enforcement’s Disgorgement Waivers                   February 3, 2009
Report No. 452
                                              41
                                                                             Appendix IV



                       Management Comments



                              MEMORANDUM

TO:            David Kotz, Inspector General

FROM:          Linda Chatman Thomsen, Director of the Division of Enforcement

SUBJECT:       Enforcement’s Response to Draft Report, Audit of Disgorgement Waivers,
               Report No. 452, dated December 31, 2008

DATE:          February 3, 2009


This memorandum is in response to Audit Report No. 452 regarding disgorgement
waivers. Recommending a waiver to the Commission is a matter we take very seriously.
The Division of Enforcement thoroughly considers all aspects of each case before
recommending a waiver. We have given guidance to our staff in this area which
balances the need to assure that the recommendation to the Commission is appropriate,
with the wise use of our limited resources. In order to receive a waiver, a defendant must
submit a sworn financial statement, which defendant must sign under penalty of perjury,
a requirement we administer strictly. We then ask our staff to carefully review the sworn
financial statements so that we can make an informed judgment as to the appropriate
recommendation. However, we do not ask the Enforcement staff to enter into a time
intensive audit of the sworn financial statements of the defendants.

Indeed, considering the large number of urgent matters directed to the Division of
Enforcement, it seems highly unlikely that the Commission would find it prudent to
direct us to spend more of our few resources in this area. Waivers make up a relatively
small percentage of our workload and thus, it is critical that we use our resources in this
area judiciously. We believe that the balance we have struck is extremely effective and
useful. We do not believe it is beneficial to use our limited resources chasing
verification of a few hundred dollars the Defendant spends on reasonable living expenses,
such as food and which would only prove that a defendant is further in debt. Likewise it
seems illogical that the Commission would choose to have us litigate a matter, instead of
settling with a waiver, because a defendant could not document his reasonable food and


Audit of Enforcement’s Disgorgement Waivers                               February 3, 2009
Report No. 452
                                              42
living expenses. In fact, in our guidance to the staff, we do not require our staff to obtain
documentation for reasonable monthly expenses.

        We – and the Commission- must consider practical issues in making waiver
decisions, such as the defendant’s overall ability to pay, litigation risk, mitigating
circumstances and resource considerations. In the first finding, the results properly
indicate that in 96% of the waivers reviewed, Enforcement granted waivers to individuals
with no ability to pay any portion of the amount waived. However, the Report then
focuses on three defendants and cherry picks assets and income of these defendants and
then determines that based on this narrow analysis these defendants could have paid
more. For instance the Report states that DFD-40 had a positive net worth of $18,115
and therefore determines that a payment plan where the defendant paid more money over
time was a viable option. This conclusion simply ignores the overall ability of this
defendant to pay more and ignores that Enforcement is already receiving a payment from
this defendant. This is a partial waiver case where the defendant paid $85,000 and
therefore was paying more in disgorgement than his net worth. In order to pay this
amount the individual borrowed from his home equity line of credit. This settlement was
negotiated before a magistrate judge, who agreed with the defendant’s sworn financial
statement which showed that the defendant had no present income. It is hard for us to
understand how the Report can conclude that this individual had an ability to make
payments overtime which would have to come from an income source that he did not
have. We continue to view this as an excellent settlement. The limits of the Report’s
narrow analysis can be seen when viewed in the context of the defendant’s overall ability
to pay. We take similar issue with the other case listed in the first finding. The case,
which involved DFD 3(a) and DFD 3(b), is a matter where we had already collected and
returned over 90% of the investor’s funds. Clearly, this is also a case that when
considered in its entirety demonstrates the staff’s and the Commission’s proper judgment.

As analyzed below we disagree with the two items the Report contends are underreported
in Finding 2. For instance, DFD-46 is a partial waiver case where defendant paid
$47,000 and $231,633 was waived. In recommending this waiver, staff took into account
that fact that defendant was unemployed and incarcerated, unlikely to ever regain his pre-
incarceration earning-power, and that his current assets would likely be depleted by
litigation costs as well as a $75,000 debt to his former employer. The Report states that
$12,533 in assets in defendant’s bank statement were not included in the individuals final
SFS. The $12,533 was reflected in defendant’s bank account statements at a date six
weeks before defendant created his SFS. Staff believes that by the time defendant
submitted his SFS, he had depleted the $12,533 account balance because defendant was
unemployed and about to report to prison, and that is why it was not included in his SFS.
Therefore, we do not believe that these assets were underreported.

As to the findings regarding adequate documentation of assets, liabilities, income and
expenses it is not surprising that the lists for assets and income, items against which you
can collect, are short and the lists for expenses and liabilities are longer. Once the staff
has determined that a defendant lacks the income and assets from which to pay

Audit of Enforcement’s Disgorgement Waivers                                  February 3, 2009
Report No. 452
                                              43
disgorgement or penalties, they generally do not expend unnecessary resources tracking
down all of the defendant’s expenses, items which can only further prove a defendant’s
inability to pay. In fact, such an effort seems wasteful. Rather, with expenses, we expect
our staff to do a cost/benefit analysis and make a reasonable determination as to what
should be further researched in terms of the defendant’s ability to pay. We think the
Report’s criticism as to these matters is further evidence of the limitations of its narrow
analysis that only looks at items in isolation, rather than in the context of the defendant’s
overall ability to pay. We believe that what the Report has found in Finding 3 is the
failure of some of our staff to maintain documentation. We note that as to the findings
for assets and income, four of the seven items for assets, and five of the six items for
income, come from one office which was not in the habit of retaining documentation
after reviewing it. We understand that this documentation must be maintained for you to
audit and we will instruct our staff to maintain all documentation which formed the basis
of their waiver recommendation.

All our waiver cases are thoroughly and carefully considered by Enforcement staff and
by the Commission before they are approved. As further explained elsewhere in this
letter, our waiver recommendation would not have changed based on anything included
in this Report. Furthermore, in many of the cases, defendant’s financial condition
continued to deteriorate after our cases were filed – such as defendants who have since
filed for bankruptcy and gone to prison.

        Furthermore, since we firmly believe that our waiver recommendation would not
have changed in any of these matters, we do not agree with the Report’s attribution of
cost savings to this audit. This statement does not take into account the cost of hiring the
contractor for this audit or the hundreds of Enforcement staff hours that were spent
making corrections to prior versions of this Report. Further, we note that only two cases
are presented as having a cost savings; one item the cost savings is listed as just over
$12,000 and for the other item the cost savings listed is $50,000 greater than the actual
amount waived.

While the Report’s findings would not have changed our waiver recommendations in any
of the cases cited, the Report’s generally phrased recommendations are actions which we
believe are appropriate and are, for the most part, actions which we are currently taking.
Therefore we acquiesce with the Report’s recommendations.


Case-by-Case Analysis

The Report lists waivers which it believes are problematic. When Enforcement is
considering recommending a waiver to the Commission, we look at the case as a whole
and take into account the defendant’s entire financial condition, litigation risk, mitigating
circumstances, Commission resources and views of the court and therefore we believe it
is useful to consider these cases from this broader perspective below. As can be seen, we


Audit of Enforcement’s Disgorgement Waivers                                 February 3, 2009
Report No. 452
                                              44
do not believe that more money would have been obtained by the Commission in any of
these matters.

   •    DFD-17
          o This is a partial waiver case where Defendant paid $65,000 of the total
             disgorgement and prejudgment interest amount of $110,583.80
             (disgorgement of $95,109 and prejudgment interest of $15,474.80). In
             fact, the Defendant effectively paid all of his available savings to satisfy
             the $65,000 portion of the judgment, and had no resources or accessible
             assets to pay the remainder. Defendant was unemployed with no income
             and had been living off of his savings for over one year. The Defendant
             had only $71,000 in assets against which we could collect.
          o The Defendant’s prospect for future employment was uncertain because
             the case against him involved allegations of fraud and he had already been
             terminated from two jobs as an auditor due to the allegations.
          o The Report states that staff did not get documentation to support
             defendant’s monthly expenses of $1,600 for a mortgage, utilities of $500,
             insurance premiums of $400, auto expenses of $300 and child care
             expenses of $500 per month. All of these appear reasonable, and it would
             not have been a wise use of our limited resources to pursue this further.
          o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.


   •    DFD-53

           o This is a case involving a waiver of $18,308 (disgorgement of $10,000 and
             prejudgment interest of $8,308).
           o This Defendant was a 77 year old man with a monthly net income of
             negative ($354) and dubious future earning prospects. Defendant has
             since been barred from the industry and thus no longer receives $1000 per
             month in commissions. Furthermore, his wife was incurring significant
             medical expenses at the time of the waiver.
           o The Report states that the Defendant had unsupported credit card liabilities
             of $6,663. The Defendant represented that these constituted amounts
             owed by him and his wife together, and that representation appeared
             reasonable.
           o The Report states that this defendant had large monthly expenses not
             supported by documentation – mortgage/rent of $660 a month, legal
             expenses of $1000 a month, credit card payments of $600 per month, and
             miscellaneous expenses of $2,194 per month. Taking the Defendant’s
             financial condition as a whole, this waiver and the resources we expended
             on it appear reasonable.
           o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.
Audit of Enforcement’s Disgorgement Waivers                              February 3, 2009
Report No. 452
                                              45
   •   DFD-11
         o This is a partial waiver case where defendant with a negative net worth
            and a negative net income paid $50,000 of the total disgorgement and
            prejudgment interest amount of $448,324 (disgorgement of $408,940 and
            prejudgment interest of $39,384). Although Defendant had a positive net
            worth of $372,033, Massachusetts state law protected his assets with a
            value totaling approximately $514,628, leaving him with a negative net
            worth for purposes of the waiver analysis. Included in the list of assets
            protected from collection by us is his retirement account of $86,781 and
            his primary residence valued at $427,847.
            The Report alleges that there are large monthly expenses that are
            undocumented, $15,148 which included $8000 of legal fees per month.
            The staff considered this expense at the time of the waiver
            recommendation and concluded that for legal fees in a litigated matter
            these did not seem exorbitant or suspicious.
         o Therefore, our waiver analysis remains the same. This waiver was totally
            appropriate.

   •   DFD - 13
         o This is a case involving a waiver of $284,385.82 ($225,000 in
             disgorgement and $59,385.82 in prejudgment interest) for a defendant
             with a negative net worth of ($261,082).
         o The Report lists this case as having underreported assets of $14,900. The
             staff found this asset, which was a vacant lot in NJ, through a LEXIS
             search at the time of the waiver analysis. Defendant told staff that he sold
             this property to a partner for $6,000. Staff identified this potential asset in
             a footnote in the Action Memo to the Commission and considered it in
             connection with our recommendation to grant a waiver to Defendant.
             However, since defendant’s net worth not including the property was
             negative ($261,082), the waiver analysis would not have changed even if
             staff included the property as an asset.
         o The $8,000 of unsupported liabilities listed in the Report for this
             Defendant refers to accrued real estate taxes of $8,000. In addition to the
             Choicepoint report and the credit report provided by the defendant, which
             reflect civil judgments, outstanding credit card debts, and other non-
             mortgage debts, the staff produced a copy of an invoice dated August
             2004 for delinquent real estate taxes in the amount of $6,176.92. The
             Defendant’s final SFS from November 2005 listed the real estate
             obligation at $8,000, which seemed reasonable given that additional taxes
             and interest would have accrued between August 2004 and November
             2005.
         o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.


Audit of Enforcement’s Disgorgement Waivers                                February 3, 2009
Report No. 452
                                              46
   •   DFD-31
         o This is a partial waiver case where the Defendants paid $1,805,612.60 of
            the total disgorgement and prejudgment interest amount of $3,421,387.40
            ($3,269,459 of disgorgement and pre-judgment interest of $151,928.49).
         o The Report notes that small monthly expenses were not documented, rent
            of $1,800, food expenses of $300 per month, utilities of $150 per month
            and car lease payments of $386 per month. This would not have changed
            our analysis and from a cost/ benefit perspective we do not believe it is
            worthwhile for these expenses to be pursued.
         o Therefore, our waiver analysis remains the same. This waiver was totally
            appropriate

   •   DFD- 40
         o This is a partial waiver case where the Defendant paid $85,000 of the
             total $521,580 in disgorgement.
         o The Report states that Defendant had a positive net worth of $18,115 and
             should have also been considered for a payment plan. At the time the
             settlement was negotiated before a magistrate judge, Defendant stated, and
             his SFS supported the fact, that he had no present income and that he
             would be borrowing from a home equity line of credit to pay this amount.
             This settlement, which was well over his net worth, was a very good
             settlement.
         o Furthermore, the Defendant agreed to act a witness against other
             individuals in our litigation.
         o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •   DFD-36
         o The Report indicates that defendant had $186,079 in liabilities that were
            not supported by documentation ($19,725 for an auto loan and $162,916
            in credit card debt). However, most of this discrepancy lies in the fact that
            $87,000 of the debt that Defendant listed in his SFS were actually his
            wife’s credit card debts (for which backup was provided). These debts
            would not appear on Defendant’s credit report and since we were not
            suing Defendant’s wife we did not have the legal authority to seek her
            credit report. These debts were included by defendant because the SFS
            instructs individuals to include their spouse’s information. This is
            especially appropriate in California, a community property state. The
            $19,725 is debt on the wife’s car (for which backup was provided). The
            rest of the discrepancy in his liabilities was between $35,000 - $75,000 in
            credit card debt (for which backup was also provided).
         o Defendant’s negative net worth on his SFS was ($236,626), so even if he
            had $35,000 - $75,000 less in liabilities, he still would not have had
            money to pay disgorgement. In addition, Defendant was living off his

Audit of Enforcement’s Disgorgement Waivers                              February 3, 2009
Report No. 452
                                              47
             credit cards because he had no money, so these liabilities were continuing
             to rise.
           o Furthermore, since our case has concluded, Defendant’s house was
             foreclosed on, his car was repossessed, he filed for bankruptcy and the
             trustee found that he had no assets to distribute. In addition, his company
             is out of business.
           o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •   DFD- 49
         o In this partial waiver case, Defendant paid $20,000 and $134,524 was
             waived. The Report states that Defendant had $84,600 in annual expenses
             ($7,050 monthly) that were not supported by documentation. We have
             provided bank statements and credit card statements that support this
             amount.
         o Staff provided hundreds of pages of bank statements and tax returns for
             each year Defendant filed tax returns. The single item missing is actually
             the credit report run by the staff after we obtained Defendant’s
             authorization to run a credit report. This report was run but we cannot
             locate it in our files.
         o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •   DFD-27
         o We disagree with the Report’s finding of undocumented assets of $23,315
            for this Defendant. The staff took significant efforts to determine which
            vehicles should have been included in the SFS, including conducting its
            own Autotrak public records search, which the Report fails to
            acknowledge and which identified each of the vehicles at issue. The first
            of the three vehicles included in the $23,315 amount is a vehicle leased by
            Defendant’s wife and thus should not be counted as an asset. Contrary to
            the findings in the Report, public record documentation of GMAC as the
            lien holder on the car was provided to OIG. The second vehicle included
            in the $23,315 amount is a vehicle valued at $4,000 that we, in fact,
            counted as Defendant’s vehicle and reported to the Commission in our
            Action Memo. The third vehicle, the Nissan, belongs to Defendant’s adult
            son, who has the same name, who did not reside with his parents, and thus
            should not be counted. In total, we identified and questioned Defendant
            about seven vehicles from public database searches, documents and
            information that Defendant produced and representations made during in-
            person interviews with Defendant and his counsel.
         o Furthermore, this is a small amount given his large negative net worth of
            over ($400,000), and would not have been material to the disgorgement
            amount that the Commission waived.


Audit of Enforcement’s Disgorgement Waivers                              February 3, 2009
Report No. 452
                                              48
           o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •    DFD 20
          o The Report states that defendant has "liabilities unsupported by
             documentation" in the amount of $11,931.38 involving property
             management fees on a Canadian condominium. We analyzed this liability
             in the Action Memorandum to the Commission. Based on the mortgage
             documents and payments reflected on defendant's bank statements, as well
             as Defendant's sworn testimony, the staff believes this debt was properly
             documented. Also, as we made clear to the Commission in our Action
             Memo, even if you exclude the Canadian property management fees,
             defendant would still have a negative worth.
          o Furthermore, this is a case where we recommended a partial waiver of
             disgorgement and in fact defendant agreed to pay $25,000 of the
             $2,589,987 in disgorgement and is currently in default on the money
             ordered to be paid. The staff is in the process of referring this matter for
             collection.
          o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •   DFD 46
         o In this partial waiver case, defendant paid $47,000 and $231,633 was
            waived.
         o In recommending this waiver, staff took into account that fact that
            defendant was unemployed and incarcerated, unlikely to ever regain his
            pre-incarceration earning-power, and that his then current assets would
            likely be depleted by litigation costs as well as a $75,000 debt to his
            former employer.
         o The Report states that $12,533 in assets in individual’s bank statement
            were not included in the individual’s final SFS. The $12,533 was
            reflected in defendant’s bank account statements at a date six weeks
            before defendant created his SFS. Staff believes that by the time
            defendant submitted his SFS, he had depleted the $12,533 account balance
            and that is why it was not included in his SFS.
         o In light of the defendant’s situation it is hard for us to fathom how the
            Report concludes that we could have collected more money from this
            defendant and that there was some how a “cost savings” of this amount
            from the audit.
         o Therefore, our waiver analysis remains the same. This waiver was totally
            appropriate.




Audit of Enforcement’s Disgorgement Waivers                              February 3, 2009
Report No. 452
                                              49
   •   DFD -24
         o This was a partial waiver case where Defendant paid $25,000 and
             $223,665 was waived. Defendant had a total net worth of negative
             ($226,000).
         o This is a case where extensive settlement discussions began early but
             broke down. The case was then scheduled to go to trial and on the eve of
             trial defendant attempted suicide. Trial was then postponed and the
             second set of settlement discussions began.
         o Defendant’s suicide attempt before the trial left him in a mental state
             where he was unable to work, was unemployed and was meeting his
             current living expenses through credit card debt and gifts from his parents.
             Also, Defendant claimed to suffer from a neurological disorder whose
             treatment caused him to develop a Vicodin addition.
         o The Report notes that “no credit reports, bank statements and income tax
             returns” were provided. However, defendant provided his required tax
             returns during the initial settlement discussions around the time the
             Complaint was first filed. By the time the second round of settlement
             discussions occurred, Defendant had not filed federal income tax returns
             since the first discussions. According to SEC guidelines, staff procured an
             IRS Form 4506-T from Defendant and confirmed this to be the case.
             Additionally, Defendant did provide credit reports and bank statements
             with his SFS.
           o The Report states that SFS identifies undocumented liabilities of: legal
             fees in the amount of $4,500 and medical fees in the amount of $1,000.
             For the medical fees, defendant provided staff with a letter from the
             hospital, stating that the defendant had been admitted in critical condition
             due to a suicide attempt. He also had submitted evidence of ongoing
             psychiatric visits and treatment for his depression. As for the legal fees,
             during the litigation of this case, the individual’s defense attorney made a
             motion with the court to withdraw based on the fact that he was not getting
             paid so staff knew the origin of the liability.
           o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

       DFD - 44 and DFD - 48
         o In this partial waiver the individual defendant, DFD-44, paid $62,035
             and $351,537 was waived.
         o The Report states that auto loans in the amount $18,275 were not
             documented. However, given that defendant had a negative net worth of
             ($251,756) regardless of those loans, it did not seem material to the waiver
             issue.
         o The entity defendant in this matter, DFD- 48, paid $50,525. We did not
             complete a checklist as we should have, however, to place this matter in
             context, the entity was entirely defunct at the point we settled, and had
Audit of Enforcement’s Disgorgement Waivers                              February 3, 2009
Report No. 452
                                              50
             only one account, which we took in settlement. The funds paid in
             settlement were obtained from an account that was frozen by Court order
             in the litigation, and which constituted the only material cash assets of the
             Defendant.
           o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •   DFD - 35
         o The Report criticizes this matter for not having bank statements and some
             tax returns. However, Staff did obtain a credit report for defendant as well
             as tax returns for 2003-2006. No bank statements were obtained because
             defendant represented in his SFS that he had no accounts and was unable
             to open any accounts because of prior bank and tax deficiencies. The staff
             was not aware of any evidence contradicting these assertions, nor did
             defendant’s credit report, AutoTrak report or other public records searches
             indicate that defendant had any bank accounts. Moreover, the staff had
             the benefit of reviewing defendant’s Personal Financial Statement
             submitted to the U.S. Probation Department and defendant’s presentence
             report which also failed to disclose the existence of any bank accounts and
             confirmed Defendant’s extremely poor financial condition. We list this
             matter to note that it can not be concluded in all instances where there is
             missing documentation, that we did not have a clear understanding of the
             defendant’s financial condition.
         o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •   DFD – 3(a) and (b)
         o The Report states that there is $373,704 in assets underreported in this
             $320,000 waiver case. However, this amount relates to a jointly-held
             interest in a venture that has not produced income and we do not believe it
             is properly listed as underreported.
         o The Report states that staff should have considered a payment plan
             because DFD 3(a) had a positive net worth of $12, 410 and DFD 3(b) had
             a positive net worth and good credit scores. However, in March 2007,
             DFD 3(a) reported to the staff that he had a net monthly income of
             negative ($1,609.54). As of January 2007, DFD 3(b) also had a negative
             monthly income and was the sole provider for a family with several young
             children. DFD 3(b)’s calculated total assets included a heavily
             encumbered residence and illiquid notes receivable. Furthermore, we
             already collected and returned over 90% of the investors’ funds. A
             modest payment plan would not have resulted in any meaningful further
             recovery.
         o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.


Audit of Enforcement’s Disgorgement Waivers                               February 3, 2009
Report No. 452
                                              51
   •    DFD 2
          o As part of his partial waiver, the staff required defendant to agree to
             make payments totaling $150,000 within two years – an amount much
             higher than his negative net worth of ($67,000) could support.
          o The Report cites unreported income of $10,655.94. This amount does not
             reflect under-reported income. This amount reflects a one-time deposit
             into the defendants’ bank account. We have spoken to bank
             representatives, who confirmed this fact and have supplied this
             information.
          o The Report cites a failure to obtain proof that defendant had not filed tax
             returns and to obtain proof of his $200,000 in back taxes. The applicant
             swore on his SFS that he was in the process of preparing those returns and
             told us that the $200,000 liability was an estimate only. Accordingly, we
             explicitly noted on the summary in the Action Memorandum to the
             Commission that the amount was “Estimated.”
          o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •   DFD- 16
         o This is a partial waiver case where the disgorgement was paid pursuant
             to a payment plan. Defendant paid approximately $35,000 and $ 69,004
             was waived.
         o The Report states that liabilities totaling $443,000 of legal fees, credit card
             debt of $24,083 and an installment loan of $1,000 was unsupported by
             documentations. Staff did not have documentation for a $1,000 loan from
             his mother and this loan was not included as a liability in the summary
             presented to the Commission. Defendant had a negative net worth of
             ($9,429) without these liabilities and as a result staff based the payment
             plan analysis on his income, assuming a zero net worth.
         o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •    DFD – 52 and DFD - 42
          o In this partial waiver case, one Defendant paid $19,000 and $31,266 was
             waived and the other Defendant received a waiver for $392,385.39. The
             Report states that Defendants have assets not supported by adequate
             documentation for $23,595 (DFD-52) and $419,049 (DFD-42)
             respectively. Valuations of these assets were verified by document
             reviews and by interviews of third parties, however we did not retain these
             documents. The valuation of the one defendant’s home was verified by
             the Court-appointed Receiver.
          o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.



Audit of Enforcement’s Disgorgement Waivers                              February 3, 2009
Report No. 452
                                              52
   •   DFD -32(a) and DFD – 32(b)
         o In this partial waiver case, one Defendant paid $200,000 and one
             Defendant paid $260,000 and $9,941,200 was waived. The Report states
             that defendant’s assets, liabilities, income and expenses are not supported
             by adequate documentation.
         o Staff obtained documents concerning key assets listed on each defendant’s
             SFS. These documents included valuation opinions of key assets,
             computerized database searches, income tax returns, copies of secured and
             unsecured notes payable and credit card statements.
         o Additionally, documents concerning the defendants’ assets were obtained
             as a part of the staff’s investigation and reviewed for the purpose of
             evaluating the defendants’ representations on their respective SFSs. These
             documents are currently in the possession of another federal authority.
             Finally, explanations concerning the valuations of the defendants’ assets
             were included in the staff’s Action Memo to the Commission.
         o Tax returns for the individual defendants for multiple years were obtained
             and provided. A credit report for Defendant was obtained by the staff. It
             was transmitted electronically to the staff and is maintained in
             computerized form. Bank and brokerage records for defendant and related
             entities were shipped to Defendant’s counsel’s office in or around May
             2007 and reviewed by the staff for the purpose of assessing the accuracy
             of the disclosures on his SFS. Due to the voluminous nature of the
             records, copies were not made. Additionally, bank and brokerage records
             for the individual defendants and their related corporate entities were
             subpoenaed as a part of the staff’s investigation. The documents were
             reviewed for the purpose of evaluating the defendants’ SFS. These
             documents are currently in the possession another federal authority.
         o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •   DFD – 15
         o In this $181,822 waiver case, the Report states that monthly income was
             not supported by documentation. The staff personally interviewed both
             defendants to discuss the defendants’ respective monthly income. At the
             meeting, bank records and income receipts were reviewed and discussed.
             Staff retained the documents for further review and thereafter returned the
             originals to the defendants. The staff also reviewed the defendants’ tax
             returns, consumer credit reports and two computerized database searches
             to evaluate the reliability of their stated income; many of these documents
             have been provided.
         o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.




Audit of Enforcement’s Disgorgement Waivers                             February 3, 2009
Report No. 452
                                              53
   •   DFD – 14
         o In this partial waiver case, defendant paid $40,000 and $223,655 was
             waived. He has paid $8,710 to date and is continuing to make payments
             through Treasury, where the debt has been referred.
         o The Report states that $25,164 in annual expenses was not documented
             ($2097 per month).
         o Defendant in this case declared bankruptcy before we submitted our
             partial waiver recommendation to the Commission. This fact is
             discussed in our action memo to the Commission. Also defendant pled
             guilty to criminal charges in connection with this fraud in the criminal
             case. He was also ordered to pay restitution of $119,936 at a rate of $100
             per month in the criminal case.
         o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •   DFD – 23
         o This is a partial waiver case where Defendant paid $45,000 in
             disgorgement and the remaining balance of $645,945 was waived. The
             Report states that defendant’s assets of $57,860 were not supported by
             adequate documentation. Trial counsel conferred with the court appointed
             receiver in this case regarding the Defendant’s assets and we note that,
             defendant, age 72, and his wife both suffered from health problems and
             were living on social security. Thus, in our recommendation to the
             Commission, we advised that Defendant be allowed to retain some assets
             to cover the shortfall between income and living expenses.
         o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •    DFD – 12
          o In this $297,559 waiver case, the Report states that Defendant had
             unsupported monthly expenses of $460 per month for office expenses and
             insurance payments. The staff conducted an asset deposition for
             Defendant regarding assets, expenses and for additional information
             because Defendant was unable to supply certain past tax returns.
          o In evaluating Defendant’s monthly expenses, we recommended that the
             Commission consider that Defendant had moved out of his home and was
             living with family members in order to avoid housing costs, and that he
             was voluntarily attempting to pay back some investors with his limited
             funds.
          o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.




Audit of Enforcement’s Disgorgement Waivers                             February 3, 2009
Report No. 452
                                              54
   •   DFD- 21
         o This was a partial waiver case where Defendant paid $378,435 and
             $1,716,590 was waived. The Report claims that there are $85,000 in
             liabilities not supported by documentation. In this case, we essentially
             took every asset that Defendant had that was collectable. In light of this
             fact, Defendant’s liabilities become much less important. Significantly,
             even if you back out the $85,000 in undocumented liabilities, Defendant
             still has a negative net worth of ($36,449) and has no additional assets
             with which to satisfy a disgorgement or penalty obligation.
         o With respect to the $85,000 in liabilities, $65,000 of this amount is unpaid
             tax liability. As described in the Action Memo in this case, defendant did
             not pay income tax or file tax returns for years 2003-2005. The staff
             independently verified defendant’s non-filing status with the IRS, and
             submitted documentation from the IRS with respect to that status. Given
             that we verified Defendant’s non-filing status, we accepted his estimate of
             his tax liabilities. However, we specifically notified the Commission that
             the $65,000 figure was an estimate in a footnote of the Action Memo.
         o Also, the Report misstated Enforcement’s position about the unsupported
             liabilities in this case. Enforcement’s position is that given the
             individual’s high negative net worth, the validity of these unsupported
             liabilities would not have changed the partial waiver recommendation
             since Enforcement had already collected every available asset.
         o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

   •   DFD – 41 and DFD 50
         o For DFD 41 the Report states that there are unsupported liabilities of
             $9,855 in credit card debt, $6,850 of medical bills, and $1,591 in monthly
             expenses. At the time we recommended the waiver, this defendant was
             serving a 24 month prison sentence.
         o Furthermore, for DFD-50, the draft Report cites unsupported, annualized
             monthly expenses of $34,680 ($2,890 a month) of $890 in utilities,
             insurance premiums of $200, medical expenses of $530 per month, and
             transportation expenses of $1270. These small amounts would not have
             changed our waiver analysis and we note that at the time of the
             recommendation, the defendant suffered debilitating health issues.
         o Therefore, our waiver analysis remains the same. This waiver was totally
             appropriate.

Finding 1:

We disagree with the Report’s conclusion that these three defendants could have paid
more and we stand by the waivers that were recommended. The Report states that a
payment plan should have been considered as to these items. In our waiver guidance we
advise the staff that a payment plan may be appropriate in three instances: (1) when the
Audit of Enforcement’s Disgorgement Waivers                              February 3, 2009
Report No. 452
                                              55
defendant has significant net income, (2) where there are substantial illiquid assets, and
(3) when there are prospects of significant future income. We do not recommend a
payment plan merely because a defendant has some ability to pay, rather we require a
substantial payment up front and the ability to pay on at least a quarterly basis so that it is
reasonable that the defendant has some ability to pay the amount ordered and so that our
resources are not wasted on payment plans with little likelihood of success. The Report
did not demonstrate any significant ability for these defendants to make a substantial
down payment or consistent monthly or quarterly payments but rather substituted its
judgment for ours without any concrete examples of how, viewing the defendant’s entire
financial situation, these defendants could pay pursuant to a payment plan. As to DFD-40
a partial waiver was in fact obtained. This defendant paid $85,000, which he obtained by
going into debt, and which is more than his positive net worth. He also had no present
income. It is hard to imagine how this individual is a candidate for a payment plan as the
Report suggests. The other item on the Report is a single case involving DFD 3(a) and
DFD 3(b), a matter where we had already collected and returned over 90% of the
investor’s funds. These two defendants had negative net incomes, making a payment
plan, as suggest by the Report, highly unlikely.

While the Report is critical of our staff for not considering credit scores we have never
directed our staff to base their recommendation on this information. While a person’s
ability to take on debt is interesting information to take into account, it does not dictate
the results of recommending a waiver.

Recommendation 1:

While we disagree with the Report’s conclusions in finding one, we will remind our staff
that payment plans and partial waivers can be appropriate. In fact, in nearly one quarter
of the waiver cases reviewed (17 cases), Enforcement recommended a partial waiver to
the Commission. We will also continue to ensure, through our memo review process, that
cases are appropriately considered for payment plans or partial waivers and comply with
our procedures. Therefore, we concur with the Report’s recommendation.


Finding 2:

The Report next cites two assets that it believes were under-reported. As to DFD-46 the
Report states that his bank records show $12,533.78 more than identified in his SFS. We
note that this was a partial waiver in that defendant paid $47,000 of the amount owed
and he was unemployed and about to report to prison. As noted above, the bank
statement was from a period prior to the SFS and was likely spent during the weeks
before the Defendant prepared his SFS, as he had no source of income. As to the other
defendant in this section, DFD-3(b), the note that the Report highlights was an interest in
a joint venture that was not producing income and we do not agree that this asset was
underreported. Therefore, our waiver analysis as to these defendants is unchanged.


Audit of Enforcement’s Disgorgement Waivers                                   February 3, 2009
Report No. 452
                                              56
Recommendation 2:

While we disagree with the basis for this finding, we agree that it is critical that the
defendant’s financial information be reviewed for accuracy and therefore concur with the
recommendation. We believe that this can best be accomplished by reiterating that our
staff follow the current guidance and appropriately fill out and follow the checklist.

Finding 3:

The Report states the staff did not obtain supporting documentation regarding certain
assets, liabilities, monthly income and expenses. We do not agree that the items listed as
undocumented assets, represent items from which we could have made collection. As to
two of the defendants, DFD-13 and DFD-27, whose questioned assets are a vacant lot and
cars, we fully explained these assets to the Commission in the Action Memo and disagree
with the Report’s conclusions. As to DFD-23, this was a 72 year old defendant who was
living on his social security. In the Action Memo to the Commission we suggested that
this individual should be allowed to live on his few remaining assets. As to the four
remaining items the Report lists, we did not retain documentation, rather we reviewed it
and either returned it or gave it to another government agency. We recognize that for
your auditing purposes we need to maintain these documents and we will instruct our
staff to do so in the future; however, these were not items for which we never obtained
documentation.

Next the Report lists liabilities it believes are unsupported by documentation. For a
number of these items we had the documentation at the time of the waiver
recommendation but we failed to maintain it. As with the same issue detailed in the
paragraph ahead we will make certain that in the future our staff maintains these records.

We note that the finding as to underreported income contains one example involving a
single $10,655.94 deposit into Defendant’s checking account. We have explained that
the bank has stated that this was a one time deposit and therefore was non-recurring
income. Since the bank is an independent third party, we believe this is adequate
documentation and we do not agree that further documentation was required as stated in
the Report. Our waiver guidance explicitly states that “non-recurring income does not
necessarily increase a defendant’s ability to pay.” For the other four items listed in this
section they are from an office that previously did not always maintain documentation
after the waiver was recommended.

The last issue in this section is monthly expenses. We do not require, and never intended
to require, documentation for every expense. We will clarify our guidance if necessary
on this matter to emphasize that we do not want staff spending unnecessary resources
documenting routine monthly expenses. Instead, our guidance specifically states that we
require staff to identify situations where defendants have exorbitant expenses which
indicate that they are living opulent life styles or if Defendant’s SFS shows that

Audit of Enforcement’s Disgorgement Waivers                                 February 3, 2009
Report No. 452
                                              57
Defendant is living way beyond his or her means without suffering some consequence.
We also want to note that the Report presents expenses as annualized figures, so when it
lists expenses of $5,520 that is a monthly figure of $460. This hardly seems like a figure
that would change our waiver recommendation.

As the Report states many of the unsupported expenses are for items such as food,
utilities, rent and insurance. In our view from a cost benefit analysis these expenses were
reasonable and did not need to be documented further than the defendants’ SFS.

Recommendation 3:

We agree that adequate supporting documentation must be maintained and we will make
clear to our staff the importance of doing this. If necessary, we will clarify our guidance
to staff that it is not necessary to collect supporting documentation for every expense in
Defendant’s SFS. We believe our controls are adequate. We will reiterate to the staff the
importance of following the guidance in the checklist and that supervisors ensure this
review is properly done.


Finding 4:

We agree that the sworn financial statements are the cornerstone of the waiver process.
The Report makes limited findings in this section as to one instance where we were not
able to produce the SFS and one instance where we were not able to provide a signed and
notarized version. This finding shows that we must reiterate to our staff the need to
carefully retain documentation.

Recommendation 4:

We concur with your recommendation that we obtain a signed and notarized SFS. Based
on your limited findings we believe that our current controls are appropriate.


Finding 5:

We agree that a checklist must be completed and signed by the supervisor, as it is the key
to our internal controls. While in most of the instances you cite the procedures in the
checklist were followed, we agree that this documentation must be maintained. We
believe that the best way to address this issue is to reiterate to our staff in the Office of
the Chief Counsel that they must obtain a copy of the signed checklist in all waiver
recommendations before those matters can be placed on the Commission calendar. We
will also reiterate to our staff that they maintain a copy of the signed checklist in the case
files.



Audit of Enforcement’s Disgorgement Waivers                                  February 3, 2009
Report No. 452
                                              58
Recommendation 5:

We concur in this recommendation and will ensure that the Office of Chief Counsel does
not allow any matters to be calendared unless they have first obtained a copy of the
signed checklist.


Finding 6:

This finding relates to missing credit reports, bank statements and income tax returns.
Many of the documents were obtained but we did not maintain a copy. We believe that
reiterating to our staff the need to follow the checklist and to retain documentation will
address this issue. To the extent the chart implies that all of these documents were
missing for all of these matters, we note that typically it was one of these items we could
not produce, not the entire list.

The Report also devotes an entire chart to income tax returns which were not signed by
the defendant. We disagree that only income tax returns physically signed by the
defendant are acceptable. Many returns are filed electronically by an accountant or
through computer programs and the copy retained by the defendant may not bear a
signature. In light of the fact that copies of the tax return are attached to the sworn
financial statement, and in the signature portion of the sworn financial statement the
defendant attests to the truthfulness of the document and all attachments, we believe that
unsigned copies of the defendant’s tax return are sufficient. We believe that asking the
defendant to sign a tax return which was already filed adds nothing to the waiver
analysis.

Recommendation 6:

We agree with the recommendation that we must obtain credit reports, bank statements
and income tax returns or clearly state to the Commission that those items are missing
and explain why it is still appropriate to grant a waiver. We believe that our current
process of requiring the staff to follow the procedures in the checklist prior to calendaring
a waiver recommendation is an appropriate internal control. We will consider the
recommendation that tax returns be signed after the fact.


Finding 7:

In this finding the Report cites to a single failure to produce a public database search.

Recommendation 7:

We concur in this recommendation. We believe that the procedures in the checklist are
an adequate internal control as was exhibited in all but one of the items reviewed.

Audit of Enforcement’s Disgorgement Waivers                                  February 3, 2009
Report No. 452
                                              59
Finding 8:

The Report notes that we did not do any formal training specifically directed at waivers
and we agree that training is appropriate. In fact, we recently included a mandatory
session on waivers in our fall training program. During that training we explained the
Commission’s overall policy on waivers, we reviewed special considerations in making
these recommendations and we went through the checklist item by item.

Recommendation 8:

We agree with this recommendation and have started implementing it.




Audit of Enforcement’s Disgorgement Waivers                               February 3, 2009
Report No. 452
                                              60
                                                                     Appendix V

         Office of Inspector General Response to
                 Management Comments

We are pleased that the Division of Enforcement (Enforcement) concurred
with all 8 recommendations but are disappointed and concerned about
Enforcement’s overall response that they do not need to undertake any
meaningful action to improve the disgorgement waiver process, stating for
the most part that their existing controls and procedures are sufficient. Our
concern is amplified by the fact that this is the Office of Inspector General’s
(OIG) third audit of this process and there does not appear to have been a
great deal of recognizable improvement since the last audit conducted in
January 2005.

Our audit found that there were $177,605,521.03 in total waivers granted
based on inability to pay among other policy reasons, for the period of FY
2006 through May 31, 2008. The audit report found many instances where
Enforcement did not follow its own procedures and failed to ensure that
defendants provided accurate assessments of their financial condition or
submitted supporting documentation for assets, liabilities, income and
expenses reported on defendants’ Sworn Financial Statements. In addition,
the audit found that Enforcement staff failed to obtain credit reports, bank
statements, or income tax returns which are necessary to corroborate a
defendant’s financial status. In light of the large amount of disgorgements
being waived and the significant findings of this audit report, we strongly
urge Enforcement to attempt to improve its process by fully implementing all
of the OIG’s recommendations.

As we do with all of our audit reports, we provided Enforcement with
significant time to respond to draft versions of the report and incorporated
many of Enforcement’s comments and perspectives into later versions of the
report. In this instance, we provided Enforcement with an initial draft on
September 8, 2008, and spent the next several months working closely with
them to ensure that the report was entirely accurate. Notwithstanding this
effort, the language and tone of Enforcement’s response leaves us
unconvinced that Enforcement will take the OIG’s findings seriously and
implement tangible and concrete measures to improve its disgorgement
waiver process.

With respect to the particular cases cited by Enforcement in its response, the
OIG’s audit report explained its reasoning for all of these cases in narrative
Audit of Enforcement’s Disgorgement Waivers                       February 3, 2009
Report No. 452
                                              61
form in the body of the report, and notes that in nearly all of these examples,
although Enforcement now attempts to provide ex post facto explanations of
waiver decisions (which were only provided after reviewing draft versions of
the audit report), the waiver files do not support these explanations.
Specifically, in several of these cases, Enforcement seems to have relied upon
representations made by the defendant, rather than by obtaining supporting
documentation. For example in case nos. 2, 12, 13, 15, 20, 27, 35 and 40,
Enforcement acknowledged in its response that it based certain of its
determinations either upon representations made by defendant or its counsel
in interviews or depositions, and/or upon defendants’ sworn statements,
rather than relying upon supporting documentation as is required, and which
is critical to ensure that these representations made by defendants who
Enforcement believed violated the securities laws were truthful and accurate.

In addition, it is worth noting that the majority of the cases cited by the OIG
in its audit are not disputed in Enforcement’s response or even addressed at
all.

We sincerely hope that Enforcement will carefully consider and implement all
the findings and recommendations in this report in order to ensure that
waiver requests are being appropriately granted.




Audit of Enforcement’s Disgorgement Waivers                      February 3, 2009
Report No. 452
                                              62
                                                                Appendix VI

                                      Criteria


17 CFR Section 201.630: “ Inability to pay disgorgement, interest or
penalties”.

“Recommending Financial Waivers and Payment Plans to the
Commission” revised as of January 14, 2005




Audit of Enforcement’s Disgorgement Waivers                   February 3, 2009
Report No. 452
                                              63
                       Audit Request and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F. Street N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




       Hotline
       To report fraud, waste, abuse, and mismanagement at SEC, contact the
       Office of Inspector General at:

       Phone: 877.442.0854

       Web-Based Hotline Complaint Form: www.reportlineweb.com/sec_oig




Audit of Enforcement’s Disgorgement Waivers                                   February 3, 2009
Report No. 452
                                              64
